<html>
<title> - THE FOUNDATION FOR SUCCESS: DISCUSSING EARLY CHILDHOOD EDUCATION AND CARE IN AMERICA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





         THE FOUNDATION FOR SUCCESS: DISCUSSING EARLY CHILDHOOD
                     EDUCATION AND CARE IN AMERICA

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, FEBRUARY 5, 2014

                               __________

                           Serial No. 113-44

                               __________

  Printed for the use of the Committee on Education and the Workforce

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

86-488 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001            
            





            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Tom Price, Georgia                   Ruben Hinojosa, Texas
Kenny Marchant, Texas                Carolyn McCarthy, New York
Duncan Hunter, California            John F. Tierney, Massachusetts
David P. Roe, Tennessee              Rush Holt, New Jersey
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Timothy H. Bishop, New York
Brett Guthrie, Kentucky              David Loebsack, Iowa
Scott DesJarlais, Tennessee          Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Jared Polis, Colorado
Trey Gowdy, South Carolina           Gregorio Kilili Camacho Sablan,
Lou Barletta, Pennsylvania             Northern Mariana Islands
Martha Roby, Alabama                 Frederica S. Wilson, Florida
Joseph J. Heck, Nevada               Suzanne Bonamici, Oregon
Susan W. Brooks, Indiana             Mark Pocan, Wisconsin
Richard Hudson, North Carolina
Luke Messer, Indiana

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 5, 2014.................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    Miller, Hon. George, senior Democratic member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Brown, Kay, E., Director, Education, Workforce and Income 
      Security...................................................     8
        Prepared statement of....................................    10
    Dichter, Harriet, Executive Director, Delaware Office of 
      Early Learning Carvel Building, Wilmington, DE.............    57
        Prepared statement of....................................    60
    Whitehurst, Grover J. "Russ", Senior Fellow and Director of 
      the Brown Center on Education Policy, Brookings 
      Institution, Washington,, DC...............................    26
        Prepared statement of....................................    29
    Yalow, Elanna S., Chief Executive Officer, Knowledge Universe 
      Early Learning Programs, Portland OR.......................    41
        Prepared statement of....................................    44

Additional Submissions:
    Ms. Brown: response to questions submitted for the record....   214
    Ms. Ditcher: response to questions submitted for the record..   219
    Holt, Hon. Russ, a Representative in Congress from the State 
      of New Jersey:.............................................
        Prepared statement of....................................   177
        Letter, dated February 14, 2014 from James J. Heckman, 
          Professor of Economics, The University of Chicago......   178
        Questions submitted for the record.......................   212
    Chairman Kline: questions submitted for the record              212
    McCarthy, Hon. Carolyn, a Representative in Congress from the 
      State of New York:.........................................
        Prepared statement of....................................   183
        Prepared statement of Otha Thornton, President, National 
          Parent Teacher Association.............................   184
    Mr. Miller:..................................................
        List of organizations supporting the Support for the 
          Strong Start for America's Act of 2013.................   101
        Letter, dated February 4, 2014 from Fight Crime: Invest 
          in Kids................................................   103
        Letter, dated February 4, 2014 from Mission: Readiness 
          Military Leaders for Kids..............................   139
        Letter, dated February 4, 2014 from America's Edge.......   153
        Letter from Shepherding the Next Generation..............   155
        Summary from First Five Years Fund of selected governors' 
          investments in early childhood education...............   157
        Summary from First Five Years Fund of evidence base on 
          preschool education....................................   160
        U.S. News article: Why the GOP Should Get On Board with 
          Preschool?.............................................   161
        Prepared statement of First Focus Campaign for Children..   188
        Prepared statement of Matthew Josephs, Senior Vice 
          President, Local Initiatives Support Corporation (LISC)   196
        Letter, dated February 18, 2014 from National Children's 
          Facilities Network.....................................   201
        Prepared Statement of Cleofias Rodriguez Jr., Executive 
          Director of the National Migrant and Seasonal Head 
          Start Association......................................   202
        Prepared Statement of Matthew E. Melmed, Executive 
          Director, Zero To Three................................   205
    Polis, Hon. Jared, a Representative in Congress from the 
      State of Colorado: questions submitted for the record......   217
    Mr. Whitehurst: response to questions submitted for the 
      record.....................................................   244
    Ms Yalow: response to questions submitted for the record.....   250

 
 The Foundation for Success: Discussing Early Childhood Education and 
                            Care in America

                      Wednesday, February 5, 2014

                       House of Representatives,

               Committee on Education and the Workforce,

                            Washington, D.C.

    The committee met, pursuant to call, at 10:06 a.m., in Room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Petri, Wilson, Hunter, Roe, 
Thompson, Walberg, Guthrie, DesJarlais, Rokita, Bucshon, 
Barletta, Heck, Miller, Scott, Tierney, Holt, Davis, Grijalva, 
Courtney, Polis, Wilson, and Bonamici.
    Staff present: Janelle Belland, Coalitions and Members 
Services Coordinator; James Bergeron, Director of Education and 
Human Services Policy; Amy Raaf Jones, Deputy Director of 
Education and Human Services Policy; Cristin Datch Kumar, 
Professional Staff Member; Nancy Locke, Chief Clerk; Daniel 
Murner, Press Assistant; Krisann Pearce, General Counsel; Mandy 
Schaumburg, Senior Education Counsel; Dan Shorts, Legislative 
Assistant; Alex Sollberger, Communications Director; Alissa 
Strawcutter, Deputy Clerk; Juliane Sullivan, Staff Director; 
Tylease Alli, Minority Clerk/Intern and Fellow Coordinator; 
Jeremy Ayers, Minority Education Policy Advisor; Kelly 
Broughan, Minority Education Policy Associate; Jody Calemine, 
Minority Staff Director; Jacque Chevalier, Minority Education 
Policy Advisor; Jamie Fasteau, Minority Director of Education 
Policy; Scott Groginsky, Minority Education Policy Advisor; 
Julia Krahe, Minority Communications Director; Brian Levin, 
Minority Deputy Press Secretary/New Media Coordinator; and 
Megan O'Reilly, Minority General Counsel.
    Chairman Kline. A quorum being present, the committee will 
come to order.
    Well, good morning.
    Thank you to our witnesses for joining us today.
    To my colleagues, welcome to the first full committee 
hearing of 2014. I am looking forward to a productive year.
    We are short one witness but are advised that is--will be 
filled here shortly. Something about rain and commutes, and 
those of us who spend time around here have great empathy and 
sympathy for that.
    Well, the debate on early childhood education has taken 
center stage in recent months. In his State of the Union 
address last week President Obama called early education, 
quote--``one of the best investments we can make in a child's 
life.''
    And there is certainly a lot of evidence to support that. 
Early childhood education and development programs can have a 
lasting influence on a child, laying the foundation for future 
success and achievement in school, the workplace, and life.
    Since the 1960s the federal government has played an active 
role in helping children--especially those in low-income 
families--gain access to critical early care and development 
services. The first program, established under the Social 
Security Act of 1962, helped disadvantaged families afford 
child care. Since then, dozens of additional federal programs 
have been established to provide a range of development 
services for children from birth through age five.
    According to a 2012 report by the Government Accountability 
Office, there are now 45 federal programs linked to early 
childhood education and care operated by several different 
federal agencies. These programs, as you can see from the 
graphic we have displayed on the screen and in the hearing 
room, are in addition to dozens of programs operated at the 
state level.
    The GAO report also found taxpayers dedicate more than $13 
billion annually to support education or related services for 
children under the age of five--a hefty price tag that is 
getting even bigger thanks to new funding included in the 
fiscal year 2014 omnibus appropriations bill. Despite this 
considerable investment, serious questions remain as to whether 
these federal programs are producing the positive results our 
kids deserve.
    The Head Start program, for example, has been the subject 
of concern since the release of the 2010 Head Start Impact 
Study and the 2012 Third Grade Follow-Up to the Head Start 
Impact Study. Head Start receives approximately $8 billion a 
year--more than half of the total investment in early care and 
development. Yet the studies found little difference between 
the achievement levels of children who had participated in the 
program and those who had not.
    During a visit to the Harlem Children's Zone last summer I 
saw firsthand that amazing things can happen in Head Start 
classrooms. But these troubling studies highlight the need to 
assess the challenges facing Head Start and consider smart 
reforms to strengthen the program. In fact, many federal early 
care and education programs are in need of serious review. This 
should be our first priority, not rubber-stamping a 46th 
federal program.
    As we examine the current federal early childhood education 
and care system this morning, my Republican colleagues and I 
believe we should discuss opportunities to streamline the 
mountain of existing federal programs, reduce regulatory 
burdens, and improve transparency to make it easier for 
providers and parents to understand their options. And above 
all, we must work together to ensure these programs are serving 
disadvantaged families first, consistent with the original 
intent of the federal investment in early childhood programs.
    The Senate Health, Education, Labor, and Pensions Committee 
recently took steps toward these fundamental goals with 
legislation to reauthorize the Child Care and Development Block 
Grant. As you know, CCDBG provides funds to states to help low-
income families access quality child care and has been due for 
reauthorization for over a decade.
    The Senate bill, approved by the committee late last year, 
includes several common-sense provisions that will help empower 
parents and enhance coordination between CCDBG and other 
federal early care and development programs such as Head Start. 
I believe this proposal provides a solid foundation to begin 
related discussions in this committee and look forward to 
working with my colleagues on this initiative in the coming 
months.
    And I now recognize my distinguished colleague from 
California, Mr. Miller, for his opening remarks.
    [The statement of Chairman Kline follows:]

Prepared Statement of Hon. John Kline, Chairman, Committee on Education 
                           and The Workforce

    The debate on early childhood education has taken center stage in 
recent months. In his State of the Union address last week, President 
Obama called early education ``one of the best investments we can make 
in a child's life.'' He's right. Early childhood education and 
development programs can have a lasting influence on a child, laying 
the foundation for future success and achievement in school, the 
workplace, and life.
    Since the 1960s, the federal government has played an active role 
in helping children--especially those in low-income families - gain 
access to critical early care and development services. The first 
program, established under the Social Security Act of 1962, helped 
disadvantaged families afford child care. Since then, dozens of 
additional federal programs have been established to provide a range of 
development services for children from birth through age five.
    According to a 2012 report by the Government Accountability Office, 
there are now 45 federal programs linked to early childhood education 
and care operated by several different federal agencies. These 
programs, as you can see from the graphic we've displayed on the screen 
and in the hearing room, are in addition to dozens of programs operated 
at the state level.
    The GAO report also found taxpayers dedicate more than $13 billion 
annually to support education or related services for children under 
the age of five - a hefty price tag that is getting even bigger thanks 
to new funding included in the FY 2014 omnibus appropriations bill. 
Despite this considerable investment, serious questions remain as to 
whether these federal programs are producing the positive results our 
kids deserve.
    The Head Start program, for example, has been the subject of 
concern since the release of the 2010 Head Start Impact Study and the 
2012 Third Grade Follow-Up to the Head Start Impact Study. Head Start 
receives approximately $8 billion dollars a year - more than half of 
the total investment in early care and development - yet the studies 
found little difference between the achievement levels of children who 
had participated in the program and those who had not.
    During a visit to the Harlem Children's Zone last summer, I saw 
firsthand that amazing things can happen in Head Start classrooms. But 
these troubling studies highlight the need to assess the challenges 
facing Head Start and consider smart reforms to strengthen the program. 
In fact, many federal early care and education programs are in need of 
serious review. This should be our first priority, not rubber-stamping 
a 46th federal program.
    As we examine the current federal early childhood education and 
care system this morning, my Republican colleagues and I believe we 
should discuss opportunities to streamline the mountain of existing 
federal programs, reduce regulatory burdens, and improve transparency 
to make it easier for providers and parents to understand their 
options. And above all, we must work together to ensure these programs 
are serving disadvantaged families first, consistent with the original 
intent of the federal investment in early childhood programs.
    The Senate Health, Education, Labor, and Pensions Committee 
recently took steps toward these fundamental goals with legislation to 
reauthorize the Child Care and Development Block Grant. As you know, 
CCDBG provides funds to states to help low-income families access 
quality child care, and has been due for reauthorization for over a 
decade. The Senate bill, approved by the committee late last year, 
includes several commonsense provisions that will help empower parents 
and enhance coordination between CCDBG and other federal early care and 
development programs, such as Head Start. I believe this proposal 
provides a solid foundation to begin related discussions in this 
committee, and look forward to working with my colleagues on this 
initiative in the coming months.
                                 ______
                                 
    Mr. Miller. Thank you very much, Mr. Chairman, and thank 
you for holding this hearing, and the witnesses for your 
attendance today and your expertise.
    Quality early learning is a critical issue that President 
Obama and members of our committee have been highlighting for 
years. Last fall Congressman Hanna of New York and I introduced 
the Strong Start for America's Children Act, a bold, innovative 
10-year federal-state partnership that will expand and improve 
early learning opportunities for children nationwide.
    And just last month we got a down payment on those efforts 
from the omnibus appropriations bill, which provided 250 
million in preschool development and expansion grants and 500 
million in Early Head Start, including the same child care 
partnerships proposed in our bill. Indeed, this is an exciting 
time for early childhood education.
    Ask any parent in America how important access to pre-K is 
to their family or whether the quality of their children's 
program matters and they will tell you how important it is that 
their children have a safe, high-quality learning environment. 
Or maybe ask elementary teachers, or law enforcement, or 
military and business leaders why they are fighting to expand 
and strengthen early childhood education around the country. 
They are all likely to engage you in the same discussion that 
we need to have today--how through quality early learning and 
child care the federal government can improve our nation's 
educational outcomes, strengthen our economy, reduce crime and 
delinquency, improve the lives of multiple generations of 
children and families.
    We know from years of empirical longitudinal research that 
high-quality preschool leads to good short-and long-term 
educational and economic outcomes for children, particularly 
those from low-income families. Despite what you may hear from 
critics, early childhood education has been proven over and 
over again to generate a substantial return on investment--one 
that far exceeds the ratio we use to determine whether most 
public projects can be considered successful for economic 
development.
    This has been proven not just in one study, but by decades 
of research across the country. The near-term effects include 
reading and math gains, fewer special education placements, and 
better health outcomes. The long-term benefits include better 
high school graduation rates, higher earnings, reduced crime, 
and fewer teen pregnancies.
    That is why states once again are increasing resources to 
early childhood programs, with at least 30 states bolstering 
early education investments in the last year. The federal 
government needs to support that action and partner with those 
states, counties, and school districts to give our youngest 
Americans a good start in life.
    You will also hear today that GAO has documented that the 
federal government has 45 programs in early care and education 
and already spends money on early education. What I believe the 
GAO report actually points is that there are just two programs 
that provide the bulk of federal role and funding for early 
education.
    There are a handful of other programs dedicated solely to 
special services to early education, such as services to 
students with disabilities and literacy support. The vast 
majority of those programs--75 percent--merely have a mention 
of early education and that means that the funds in those 
programs may or may not even be spent on early education. In 
fact, GAO does not document if funds in those programs are 
actually going to early education, just that the law says they 
could.
    Moreover, GAO could not find any duplication of services, 
despite there being some overlap in purposes of some programs.
    Today we will hear from Delaware's Early Learning Director, 
if the trains permit. She has found that federal funds for 
early education, along with the innovative state and local 
efforts, can help transform children's lives.
    The American people understand how important properly 
funded, quality early education programs are to our future. A 
recent national bipartisan poll showed that 70 percent of 
Americans, including 60 percent of Republicans, support more 
federal funding for better early education for children from 
low-income families.
    This is what the President proposed his fiscal year 2014 
budget and in his State of the Union addresses for the second 
year in a row. He has seen the research and knows that federal 
action can generate state and local initiatives in support of 
young children and their families.
    He recognizes that even though we know quality early 
learning works well on so many levels, too many disadvantaged 
children don't have access to any of the services, much less 
quality services. For example, only one in six children who is 
eligible for federal child care assistance receives it. Less 
than 45 percent of eligible children have access to Head Start.
    Even now, with low-income families--even now, when low-
income families do have access to quality learning programs, 
they are often unaffordable. This has not only affected 
children and their family stability, but affects our jobs, our 
economy, and the success of the next generation.
    That is why we are doing something about it. We have more 
than 60 organizations supporting my bipartisan Strong Start 
bill, ranging from business leaders to law enforcement to 
military leaders to elementary school principals. On top of 
that, some 500 state legislators of both parties have sent 
letters in support of the legislation.
    I urge the committee to consider the bill and to move it to 
the House floor for passage.
    In addition, I will be working with the administration to 
ensure that funds received through the omnibus bill are spent 
wisely. Let me be clear: Until this committee and this Congress 
decide to act on this issue in a responsible way, we are ceding 
control to legislate and managing this funding to the 
administration.
    Got that? Okay.
    Greater--
    Chairman Kline. This would be the only place--
    Mr. Miller. Great child care and early education 
investments at federal, state, and local levels are needed 
because low-income working parents lack access, can't afford 
services, or don't have enough good choices. The future of our 
nation depends on turning this around and providing high-
quality early learning for all children.
    And I yield back the balance of my time. Thank you.
    [The statement of Mr. Miller:]

  Prepared Statement of Hon. George Miller, senior Democratic member, 
                Committee on Education and the Workforce

    I want to start by thanking Chairman Kline for holding today's 
hearing.
    Quality early learning is a critical issue that President Obama and 
members of our committee have been highlighting for years.
    Last fall, Congressman Hanna of New York and I introduced the 
Strong Start for America's Children Act, a bold, innovative 10-year 
federal-state partnership that would expand and improve early learning 
opportunities for children nationwide.
    And just last month, we got a down payment on these efforts from 
the omnibus appropriations bill, which provided 250 million in 
preschool development and expansion grants and 500 million for Early 
Head Start, including the same child care partnerships proposed in our 
bill.
    Indeed, this is an exciting time for the early childhood education.
    Ask any parent in America how important access to pre-K is for 
their family, or whether the quality of their child's program matters. 
They will tell you how important it is that their children are in a 
safe, high-quality learning environment.
    Or maybe ask elementary school teachers, law enforcement, the 
military, and business leaders why they are fighting to expand and 
strengthen early childhood education around the country.
    They are all likely to engage you in the same discussion that we 
need to have today: how, through quality early learning and child care, 
the federal government can improve our nation's educational outcomes, 
strengthen our economy, reduce crime and delinquency, and improve the 
lives of multiple generations of children and families.
    We know from years of empirical, longitudinal research that high-
quality preschool leads to good short- and long-term educational and 
economic outcomes for children, particularly for those from low-income 
families.
    Despite what you may hear from critics, early childhood education 
has been proven over and over again to generate a substantial return on 
investment--one that far exceeds the ratio we use to determine whether 
most public projects can be considered successful economic development.
    This has been proven by not just one study, but by decades of 
research across the country.
    The near-term effects include reading and math gains; fewer special 
education placements; and better health outcomes.
    The long-term benefits include better high school graduation rates, 
higher earnings, and reduced crime and fewer teen pregnancies.
    That's why states are once again increasing resources for early 
childhood programs, with at least 30 states bolstering early education 
investments in the last year. The federal government needs to support 
that action and partner with states, counties, school districts, and 
cities to give our youngest Americans a good start in life.
    You'll also hear today that GAO has documented that the federal 
government has 45 programs for early care and education and already 
spends money on early education.
    What the GAO report actually points out is that there are just two 
programs that provide for the bulk of the federal role in, and funding 
for, early education.
    There are a handful of other programs dedicated solely to support 
services in early education, such as services for students with 
disabilities and literacy support.
    The vast majority of those programs, 75 percent, merely have 
mention of early education in them. This means that the funds in those 
programs may not even be spent on early education.
    And in fact, GAO does not document if funds for those programs are 
actually going to early education--just that the law says they could.
    Moreover, GAO could not find any duplication of services, despite 
there being some overlap in the purposes of some programs.
    Today, we will hear from Delaware's early learning director. She 
has found that federal funds for early education, along with innovative 
state and local efforts, can help transform children's lives.
    The American people understand how important properly funded, 
quality early education programs are for our future. A recent national 
bipartisan poll found that 70 percent of Americans--including 60 
percent of Republicans--support more federal funding for better early 
education for children from low-income families.
    This is what the president proposed in his FY 2014 budget and in 
his State of the Union address for the second year in a row. He's seen 
the research and knows that federal action can generate state and local 
initiatives in support of young children and their families.
    He recognizes that even though we know quality early learning works 
on so many levels, too many disadvantaged children don't have access to 
any services, much less quality services.
    For example, only one in six children eligible for federal child 
care assistance receives it, and less than 45 percent of eligible 
children have access to Head Start.
    Even when low-income families do have access to quality early 
learning programs, they are often unaffordable. This is not only a 
threat to children and family stability, but to jobs, our economy, and 
the success of the next generation.
    That's why we are doing something about it. We have more than 60 
organizations supporting my bipartisan Strong Start bill, ranging from 
business leaders to law enforcement to military leaders to elementary 
school principals. On top of that, 500 state legislators from both 
parties sent a letter in support of the bill.
    I urge the committee to consider this bill and move it to the House 
floor for passage.
    In addition, I'll be working with the administration to ensure that 
the funds received through the omnibus bill are spent wisely.
    But let me be clear, until this Committee and this Congress decide 
to act on this issue in a responsible way, we are ceding control of 
legislating and of managing this funding to the administration.
    Greater child care and early education investments at the federal, 
state, and local levels are needed because low-income, working parents 
lack access, can't afford services, and don't have enough good choices. 
The future of our nation depends on turning this around and providing 
high-quality early learning for all children.
                                 ______
                                 
    Chairman Kline. I thank the gentleman.
    Pursuant to committee rule 7(c), all committee members will 
be permitted to submit written statements to be included in the 
permanent hearing record. And without objection, the hearing 
record will remain open for 14 days to allow statements, 
questions for the record, and other extraneous material 
referenced during the hearing to be submitted in the official 
hearing record.
    It is now my pleasure to introduce our distinguished panel 
of witnesses, which--no. We got a little--just a little flurry 
back there.
    I will introduce the three of you here and when Ms. Dichter 
arrives we will get her wherever she comes in, wherever the 
trains allow.
    Ms. Kay Brown is the Director for Education, Workforce, and 
Income Security issues at the Government Accountability Office, 
the GAO. She is currently responsible for leading GAO's work 
related to child welfare, child care, domestic nutrition 
assistance, Temporary Assistance for Needy Families, and 
services for older adults. And we do keep her busy.
    Dr. Grover J. ``Russ'' Whitehurst is the Director of the 
Brown Center on Education Policy at the Brookings Institution. 
Previously he was the first Director of the Institute of 
Education Sciences.
    Dr. Elanna Yalow is the Chief Executive Officer for 
Knowledge Universe Early Learning Programs. She has over 20 
years of experience with Knowledge Universe, where she is 
responsible for the development of educational programs in the 
United States and for the use of best practices in education, 
professional development, and quality assurance across the 
company's education programs in the U.S., Europe, and Asia.
    Before I recognize each of you to provide your testimony 
let me briefly explain our lighting system. You will each have 
5 minutes to present your testimony.
    When you begin the light in front of you will turn green; 
when 1 minute is left the light will turn yellow; and when your 
time is expired the light will turn red. At that point I ask 
you to wrap up your remarks as best you are able, and after 
everyone has testified members will each have 5 minutes to ask 
questions of the panel.
    I now recognize Ms. Brown for 5 minutes.

    STATEMENT OF MS. KAY E. BROWN, DIRECTOR FOR EDUCATION, 
       WORKFORCE, AND INCOME SECURITY ISSUES, GOVERNMENT 
         ACCOUNTABILITY OFFICE (GAO), WASHINGTON, D.C.

    Ms. Brown. Chairman Kline, Ranking Member Miller, and 
members of the committee, thank you for inviting me to discuss 
our work on early learning and child care programs.
    Today I will cover the number and range of these programs 
and the extent to which they are fragmented, overlap, or 
duplicate each other. My remarks are based on GAO's 2012 review 
in which we looked for federally funded programs that focused 
on preparing young children for school or provided subsidized 
child care to help low-income parents work or attend school or 
training.
    Overall we identified 45 programs, and these can be grouped 
into three categories. First, 12 of the programs have an 
explicit purpose of providing early learning or child care 
services. That is, these services are part of their main 
mission.
    In fiscal year 2012 these programs received more than $14 
billion in federal spending. Some are very large, such as Head 
Start, which obligated $8 billion that year, while most others 
are smaller, obligating less than 500 million each. They all 
target specific groups, such as low-income children or children 
with disabilities.
    Of the remaining 33 programs, the second group contains 
multipurpose block grants or other programs that have a 
different main purpose but whose funds may be used for early 
learning or child care. For example, the TANF program aims to 
promote work and help end dependence on government benefits, 
and 2.6 billion in TANF funds were used for child care in 2012.
    The third group includes programs that provide services 
that facilitate or support early learning or child care 
programs. For example, the Child and Adult Care Food Program 
provides nutrition assistance to young children in different 
settings. In addition to these programs we identified five tax 
provisions that subsidize private expenditures in this area.
    Now, moving on to the extent of fragmentation, overlap, and 
duplication, the federal investment is fragmented. By this I 
mean that these programs are administered by multiple agencies. 
They are concentrated within the Departments of Education and 
HHS, but six other federal agencies and one federal state 
commission are also involved.
    Further, these programs overlap each other, meaning 
multiple programs have similar goals and target similar groups 
of children. For example, several programs provide school 
readiness services to low-income children, and programs in both 
Education and Interior provide funding for early learning 
services for Indian children.
    Now, it is harder to tell whether these programs are 
duplicative--that is, whether they provide the same services to 
the same beneficiaries. This is because many of the different--
because of the many different ways the programs are structured, 
the wide range of allowable uses for the funds, and the lack of 
data in some cases on services provided. Also, the eligibility 
requirements differ among programs even for similar subgroups 
of children, such as those from low-income families.
    So what does all this mean? The federal support for these 
programs has developed over time in response to emerging needs. 
However, administering similar programs through different 
agencies can lead to situations where the programs may not 
serve children and their families as efficiently and 
effectively as possible. This can also lead to added 
administrative costs for things like eligibility determination 
and reporting requirements.
    I should also note, though, that even with this overlap it 
is likely that there are gaps in service. For example, HHS 
estimated that between fiscal years 2004 and 2007 about one-
third or fewer of potentially eligible children from low-income 
working families received child care subsidies from the three 
main programs. Further, there are likely cases where the 
programs complement each other, such as when a child in daycare 
also receives meals funded through a separate nutrition 
program.
    Now, one way to help mitigate the effects of fragmentation 
and overlap is through enhanced coordination. Education and HHS 
have an interdepartmental work group, and in our 2012 report we 
noted the need to deepen and extend their ongoing coordination 
efforts by including all of the relevant federal agencies. At 
this time, the work group is still considering what action to 
take.
    This concludes my statement. I would be happy to answer any 
questions you may have.
    [The statement of Ms. Brown follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Kline. Thank you.
    Dr. Whitehurst, you are recognized.

 STATEMENT OF DR. GROVER J. ``RUSS'' WHITEHURST, SENIOR FELLOW 
AND DIRECTOR OF THE BROWN CENTER ON EDCUATION POLICY, BROOKINGS 
                 INSTITUTION, WASHINGTON, D.C.

    Mr. Whitehurst. Mr. Kline, Mr. Miller, members of the 
committee, I am very pleased to be here.
    Mr. Kline, you mentioned my current job and my previous 
one, but I want to spend most of my time here reflecting on the 
work that I did as an applied developmental psychologist. I 
spent a lot of time in child care facilities during that period 
that were under the sway of federal legislation.
    I remember vividly a young mother I met at a parents' 
meeting at a Head Start center. On leaving the center that 
evening I saw her walking down the road with a 4-year-old in 
hand, pushing her 2-year-old in a stroller, and carrying a 
large bag of materials that had been passed out at the meeting. 
She was struggling.
    I asked her if she wanted a ride home. She accepted. I 
thought I would be taking her a couple of blocks but it was a 
couple of miles before I dropped her off in front of the 
dilapidated home where she lived.
    I asked her if she had walked all the way to the meeting 
with her young kids. She said that she had. I said, ``That is a 
long way to walk with two kids. Why did you do it?''
    Her answer was, ``I just wanted to do what was best for my 
babies.''
    We all should want a system of federal funding that would 
allow her and millions of parents like her to do just that--
what is best for their babies. The question for me is not 
whether the federal government should support the learning and 
care of young children, but how it should do so.
    The current system is simply broken. If we are going to 
reform it we must acknowledge some facts. I will give you five; 
there is a longer list in my written testimony.
    Number one: The federal government spends a lot on early 
childhood programs, particularly relative to its expenditures 
at other levels of learning. You have heard Kay Brown say it is 
about $14 billion. If you take into account expenditures from 
these other programs that are not directly focused by 
legislation on early childhood it comes to over $22 billion.
    By way of comparison, the federal government's entire 
expenditure on the education of the disadvantaged in grades K-
12 is roughly $15 billion. It is a lot of money.
    Number two: We are not getting our money's worth from 
present federal expenditures on early childhood services. You 
have heard Chairman Kline speak about the evaluation of Head 
Start. It is a very strong federal evaluation from Health and 
Human Services--demonstrates that Head Start produces no 
lasting educational gains for participants. In fact, the 
impacts of Head Start don't even last until the end of 
kindergarten.
    Expenditures for child care under the Child Care 
Development Block Grant Program may actually do harm to some 
children because states administer this program in ways that 
encourage families to place their children in low-quality care 
or to not get any help at all, and this is true of TANF as 
well.
    Number three: State programs may be no more effective than 
Head Start. A recent high-quality evaluation of Tennessee's 
Voluntary Pre-K Program found that the group that experienced 
pre-K actually performed less well on cognitive tasks at the 
end of first grade than the control group.
    Number four: The results from early model programs cannot 
be generalized to present-day investments. Who among us has not 
heard the claim that a dollar invested in quality preschool 
returns seven dollars in public benefits--or perhaps $13 or 18, 
depending on who you are reading?
    These estimates are derived from studies of two small pre-K 
programs from 40 to 50 years ago serving about 100 kids in all. 
They are different in almost every way from anything that is 
being seriously considered presently, so when you hear that 
every dollar invested in quality pre-K today will return seven 
dollars or more tomorrow, I would swallow with a grain of salt.
    Number five: Only some children need pre-K services to be 
ready for school and life. Most young children do not need to 
experience organized, center-based care in order to develop 
normally, profit from later educational opportunities, and live 
happy and productive lives. My staff leads me to believe that 
no President of the United States attended pre-K or nursery 
school.
    Every credible evaluation of early childhood education 
shows that the impacts, when they are found at all, are 
concentrated at the lower end of the distribution of family 
socioeconomic status.
    What do these facts suggest for federal policy? First, 
federal expenditures should be targeted on families that cannot 
otherwise afford child care. The federal funding stream should 
be reformed so that it is a reliable and predictable source of 
support for those families.
    States have a critical role to play as partners of the 
federal government in its support of child care, but not, I 
believe, as intermediaries in dispensing federal funds to child 
care providers. Federal policies should support child care 
systems that can evolve and learn based on feedback from their 
customers rather than top-down systems in which details of 
curriculum and staffing are decided by government.
    And finally, current levels of federal expenditure, I 
believe, are adequate as a starting point for an effective 
system of support for child care if only it were redesigned.
    One way that my policy recommendations could be translated 
into legislation would be through the creation of a federal 
grant program for early child care--that is, that would work 
along the lines of the federal Pell Grant system. Like Pell 
Grants go to students, early learning grants would go to 
parents to be carried with them to a licensed state child care 
provider of their choice. These early learning grants would 
replace most present forms of federal financial aid for early 
learning, including Head Start and the Child Care Development 
Block Grant.
    Congress, I believe, has a choice. It can continue to 
tinker with current programs and create new programs for which 
states have to jump through hoops that are designed in 
Washington, or it can trust families and place the financial 
resources to purchase early learning and child care directly in 
their hands--
    Chairman Kline. Excuse me, Dr. Whitehurst, if you can wrap 
up quick--
    Mr. Whitehurst. I hope it is clear which of these I prefer. 
Thank you.
    [The statement of Dr. Whitehurst follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Kline. Thank you very much.
    [Laughter.]
    Timing is everything.
    Dr. Yalow, you are recognized?

  STATEMENT OF DR. ELANNA S. YALOW, CHIEF EXECUTIVE OFFICER, 
    KNOWLEDGE UNIVERSE EARLY LEARNING PROGRAMS, PORTLAND, OR

    Ms. Yalow. Chairman Kline, Ranking Member Miller, and 
members of the committee, thank you for the opportunity to 
discuss the importance of high-quality early childhood 
education and the role that federal programs such as the Child 
Care and Development Block Grant play in ensuring working 
parents have access to a quality educational provider of their 
choice.
    I am Dr. Elanna Yalow, Chief Executive Officer of Knowledge 
Universe Early Learning Programs. Serving children and families 
for over 40 years, Knowledge Universe is the nation's largest 
provider of early childhood education, best known for its 
community-based KinderCare Learning Centers. We also provide 
education and care at employer-sponsored centers through 
Children's Creative Learning Centers and before-, after-school, 
and summer learning in partnership with school districts 
through our Champions brand.
    We are honored each day to provide a high-quality education 
to over 150,000 children ranging in age from 6 weeks to 12 
years at over 1,600 centers and 300 school sites. We are 
committed to serving all children regardless of background.
    Approximately one-third of our children are from low-income 
working families who receive assistance under CCDBG. In 
addition, we serve more than 2,500 children with special needs. 
We are also the largest partner with the Department of Defense 
in providing high-quality community-based child care for 
America's military, serving some 2,700 active duty families.
    The core focus of Knowledge Universe is the quality of each 
child's educational experience. To ensure our children have 
this strong foundation, our teachers deliver our proprietary 
developmental curriculum that covers the essential domains of 
child development.
    And to assure a seamless transition from our educational 
program to elementary school we have aligned our curriculum 
with state standards in English language arts and mathematics 
and with early learning standards in the 39 states in which we 
operate. In developing our curriculum, we have worked with 
outside subject matter and developmental experts to ensure that 
our curriculum is consistent with the latest research and best 
practices and that it will meet the diverse needs of the 
children that we serve.
    To ensure quality and continuous improvement, we embrace 
the opportunity to subject our centers and our programs to 
external review and validation. We have already achieved 
national accreditation at 763 of our centers--more than any 
other provider in the United States--with the balance of our 
centers already in process or initiating accreditation within 
the next 12 to 18 months. We also actively participate in state 
quality rating and improvement systems.
    Further, we are committed to working with states to follow 
the performance of our children as they enter kindergarten. We 
recently partnered with Maryland to evaluate the school 
readiness of children who attended KinderCare. Data from the 
Maryland statewide kindergarten assessment showed that a higher 
percentage of Maryland children who attended KinderCare were 
fully ready on key school readiness indicators, including 
language and literacy, mathematical thinking, and scientific 
thinking, than their peers who did not attend KinderCare.
    Additionally, children who had participated in KinderCare 
full time for more than 1 year showed even higher percentages 
of school readiness, indicating more positive outcomes with a 
more concentrated dose of KinderCare.
    Without the dedication of our over 24,000 teachers we would 
not be able to deliver the high-quality education and care that 
we do each day, and we are partnering with research scientists 
at the Gallup Organization to develop a selection tool to help 
us identify, hire, and retain the best teachers, and also to 
measure employee and family engagement--critical components of 
quality.
    Given the importance of a child's earliest years, 
investments should focus on the children who will benefit the 
most; promote continuous program improvement and quality; not 
displace the many qualified, experienced, and dedicated 
teachers already serving our youngest citizens; and continue to 
support and respect parental choice in meeting the needs of 
individual children and families.
    When parents entrust their children to the care of others 
they must feel confident about their options. The current CCDBG 
program serves as an important model for mixed delivery, 
providing vital support and choice for America's working 
families.
    Unlike some programs that target only certain ages or that 
provide only half-day or school-year programs, under CCDBG low-
income working families can choose a provider of their choice 
for their children from birth through age 12 that meets their 
work schedules, providing for greater consistency and better 
child outcomes.
    Lower-income families also have access to the same schools 
and the same classrooms available to children from more 
affluent backgrounds, typically at a significantly lower cost 
with the benefit of a more diverse and balanced learning 
environment for all children.
    There are a few areas you may wish to consider for 
improvement to CCDBG, given that it has been almost two decades 
since its last reauthorization. Efforts to provide 
reimbursement rates that cover the full cost of quality care 
should be made to ensure that all children receiving services 
do so in a safe, secure, and enriched learning environment and, 
in turn, yield improved child and societal outcomes. Continuous 
improvement should also be incentivized through state quality 
rating and improvement systems and national accreditation.
    I also ask that you consider changes that would allow for 
greater continuity of care for children. Currently, children 
can lose access to care at any time due to an unexpected job 
loss or change in income. While maintaining program integrity, 
it is possible to allow for less disruptive redeterminations 
and for parents to seek increased wages without fear of 
immediate loss of their child care subsidy.
    An additional benefit of the mixed delivery model is the 
current system has excess capacity that could easily be 
leveraged to serve more children without incremental 
investments in facilities, program management, and professional 
development and training. A number of states already do so in 
implementing their state preschool programs, but this 
opportunity should be expanded.
    For instance, Knowledge Universe participates in the state 
voluntary pre-K programs in Florida and Georgia, among others, 
and we participate in a number of Head Start partnerships in 
Ohio. All these varieties of public-private partnerships could 
be better utilized to provide more children and families access 
to a high-quality early learning experience that best meets 
their family's needs.
    Thank you again for this opportunity, and I look forward to 
questions and discussion.
    [The statement of Dr. Yalow follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Kline. Thank you.
    I am going to make an administrative announcement here. We 
are still waiting for the--I think it is probably taxi now. We 
have moved from train to taxi. And with the weather, not sure 
of the arrival.
    So we are going to go a little bit out of sequence here. I 
will start asking questions and then we move to Dr. Roe and we 
hope that the cab has arrived so that we can get members from 
both sides a chance to ask questions.
    I know a number of you are waiting to ask questions of Ms. 
Dichter, so we are going to try this.
    Go for it. All right.
    Okay, so let me start, and I will start with you, Ms. 
Brown, and let me start by saying thank you to the good work 
you have done personally and the work that GAO does. We, both 
sides, are tasking you pretty heavily and do pretty fine work 
for us.
    In your testimony you report that we have got an 
overlapping and fragmented system, and there are also gaps in 
the system. So I have sort of two questions.
    One, this overlapping and fragmented program, how does that 
impact the ability of parents to get accurate information about 
what might be available? And then two, what might be a 
recommendation for what Congress can do to address that 
situation?
    Ms. Brown. As far as the effect on parents, I think the 
kinds of things that we talk about here as far as what is the 
appropriate eligibility criteria, and what are the expectations 
for the services that are provided, and how they vary from 
program to program translate into some very practical 
challenges and potential for confusion on the front line when 
parents are trying to arrange child care for their children, in 
that maybe some like--``I have a half-day Head Start program 
but now I have a job and I have to figure out how I can also 
apply for child care for wrap-around services,'' and it just--
it can get confusing and challenging.
    As far as what Congress could do, in our report we made a 
recommendation to an interagency working group that they should 
better coordinate, and I just want to clarify what we mean by 
that. We don't mean getting together and sharing information; 
we mean actually sitting down and taking a hard look at the 
programs that cut across these different agencies: Do they 
still work? What do we know about who they are serving? What 
are the results? Are they unique or did they--you know, are the 
needs still exist?
    And so we are asking them to take a look at that because we 
think that can be a really useful starting place, but the 
outcome of that, we would hope, would be some recommendations 
for agencies--federal agencies--to take and some 
recommendations that would have to come to Congress, because I 
am sure that they would be identifying some changes that would 
need to be legislated, as well.
    Chairman Kline. Okay. Thank you.
    On Head Start, you have done a lot of work on Head Start--
GAO has over the years, and we have talked about it here and we 
are going to look towards reauthorizing the Head Start Act. Can 
you talk a little bit about what you have done in the way of 
reporting and what your recommendations have been as we look at 
Head Start?
    I said in my remarks that I have personally seen Head Start 
programs which are doing marvelously well, and yet we have 
reports from you and others they have some that aren't. So 
could you address that--Head Start specifically, please?
    Ms. Brown. Yes. We have made some recommendations through 
the years that are primarily related to oversight of the 
program, both in areas like financial management and we had a 
report that was related to accurately determining eligibility 
for applicants, and we have also talked about program quality.
    Now, HHS, I believe, is taking some action in some of these 
areas, so a future look might be to make sure that those 
actions are actually achieving the goals that they are hoping. 
And the other thing that--as far as what is going on right now 
with Head Start is the re-competition for grantees and whether 
that process is working as intended.
    Chairman Kline. Okay. Thank you.
    And then, Dr. Whitehurst, a lot of discussion--I said, 
again, in my remarks and others have said that a lot of these 
federal programs were aimed at economically disadvantaged 
homes. Can you take the 40 seconds or so I have got here and 
address that issue of what the importance of targeting early 
childhood to those homes?
    Mr. Whitehurst. Yes. I mean, the research, I think, is very 
clear that these investments have a disproportionate impact on 
the families that are in greatest need, where the parents have 
low education levels, where there is a single parent, where 
English may not be the language spoken in the home, and that 
the impacts certainly trail off as you move into serving 
families that are well-situated--they have money, they have 
resources, they invest time in their kids.
    So if you are thinking of this in terms of a cost-benefit 
analysis you certainly want to tailor the investment and target 
the investment on the families that are going to most profit 
from it.
    Chairman Kline. Okay. Thank you.
    My time is down to 4 seconds so I will yield back and 
recognize Dr. Roe.
    Mr. Roe. Thank the chairman for yielding.
    And just a moment, I want to thank all the time Congressman 
Andrews has spent on the committee. I know he is not going to 
be with us in the near future, and I know I have certainly 
enjoyed working with Rob during my time here on the committee.
    The problem we are trying to solve is the achievement gap, 
and we know that the achievement gap begins really almost at 
birth. And that is what we are trying to make up.
    And, Dr. Whitehurst, I couldn't agree more with you that it 
would make no difference whatsoever in my family to have a 
national program for pre-K. It isn't going to affect the 
outcomes.
    And I have a reading assignment for everybody here in--that 
is on this committee, and I would encourage each and every one 
of you to read the book ``I Got Schooled'' by M. Night 
Shyamalan. I have read it, now I am reading it for the second 
time. A famous movie producer, and did ``The Sixth Sense'' and 
some other very good movies, and he makes that point over and 
over again: It is basically income inequality that creates this 
gap.
    And all you do at let's say Head Start--some places Head 
Start works great; in some places it is a waste of time, the 
kids don't get anything. But if every child--the data proves 
this beyond a shadow of a doubt--if every child shows up at the 
starting line in kindergarten at the same place, that low-
income child is going to fall behind because every summer--you 
take a middle-class family like myself that are going to read 
to my kids and my grandkids, they actually gain during the 
summer. And the average low-income child loses 3 months, so by 
the eighth or ninth grade they are hopelessly behind.
    And I just--before I got here, Dr. Whitehurst, I called my 
local school director, and we have 50 percent free and reduced 
lunch in Johnson City, Tennessee--not exactly a high-income 
area. But they have been able to narrow that gap by expanding 
the school day and also expanding summer. We used lottery money 
there to use and have reading programs during the summer.
    And I think you are right, and I want you to expound on it 
some--and Ms. Brown or Ms. Yalow, either one, Dr. Whitehurst 
first--about how we can better use our limited resources. There 
is no reason in the world to waste money on my family, but 
there is a great reason to spend the money on low-income 
families.
    Mr. Whitehurst. Well, thank you for the excellent question 
and comments. I mean, one of my concerns about the way that 
pre-K has been sold recently as the magic bullet is the sense 
that, you know, if we invest there we are going to solve all 
these problems. We are not.
    The problems are multiply determined and they take multiple 
solutions, and so I would like to see the policy discussion go 
to the issues of how can we best spend this money? Would it be 
better spent on after-school programs? We know that there are a 
lot of school-based interventions that have--and past the pre-K 
years that have a strong impact on children.
    Chairman Kline mentioned the Harlem Children's Zone. We 
have other charter schools that are hitting the ball out of the 
park in terms of catching kids up. So there are all these 
choices involved. I think investment in pre-K for the most 
disadvantaged kids is a wise investment, but we have to balance 
that with a consideration for needs throughout the lifespan and 
where we can get the greatest impact.
    Mr. Roe. Well, let me make one statement that really caught 
my attention in this book. If you take away--if you take 
schools in this--we are always told about how we are behind 
Lichtenstein and Poland and every other place in the world, but 
if you takes schools that only have a 10 percent poverty rate 
level, and that is defined by 75 percent and above free and 
reduced lunch--America has the highest scores in the world, 
period. Nobody is even close.
    The problem are the bottom quartile--the 20 percent of low-
income--and there are--the Harlem--I have done extensive 
reading about that. Why don't we pool these resources that we 
have got, this $20 billion or $22 billion you mentioned, and 
those resources, instead of starting a new program that goes to 
my kids and grandkids who don't need it and really target where 
that money needs to be?
    Mr. Whitehurst. Well, you know, that is what I have 
recommended. And in some sense a lot of it is targeted now, but 
as Ms. Brown has indicated, it is so--such a mish-mash that 
many parents who qualify for it don't get it, they drop in, 
they drop out. It is not designed in a way to achieve impact 
from the point of either the taxpayer or certainly for most 
families.
    So I, you know, I would encourage the committee and 
Congress to think about not just tinkering around the edges, 
but what can we do to make sure these resources get to the 
families who really need it in a way that they can spend it 
coherently to produce a better life for themselves?
    Mr. Roe. Would year-round school be one of the ways you 
could close this gap? Because we did that at home and our 
director clearly pointed out that we got 10 more days in the 
classroom and added 30 minutes more to each day. I think that 
has a lot to do with it.
    I see my time is expired. I yield back. Thank you, 
Chairman.
    Chairman Kline. Thank the gentleman.
    Mr. Miller, you are recognized.
    Mr. Miller. Thank you very much.
    Thank you to all of the witnesses.
    Ms. Brown, I would like to talk a little bit about your 
report here, because I want to make sure that we are looking at 
this through the proper lenses, if you might. And I have a 
series of questions, if you could be as brief, but I want you 
to answer, you know, but be as brief as you possibly can.
    As I looked at your report, you differentiate between types 
of programs: those with explicit learning purposes and those 
programs where funds could, may, or may not be spent on early 
learning. Is that correct?
    Ms. Brown. Correct.
    Mr. Miller. So roughly about 75 percent of the programs are 
in that latter category, the funds could or could not be spent.
    Ms. Brown. Correct.
    Mr. Miller. Then there is the question of the funds that 
provide particular slots for programs. It would seem logical to 
me that TANF would carry some child care allocations because 
there is a waiting list at most child care centers so you are 
going to have to figure out how to expand in that region, that 
neighborhood, that city additional opportunities for child 
care--the goal is to get parents to be able to take up training 
and hopefully jobs.
    So that would be a specific purpose. There is a reason that 
is connected to TANF.
    Ms. Brown. Yes. That is fair to say.
    Mr. Miller. Okay. And children with special needs--we are 
finding more and more research telling us that intensive early 
learning opportunities for children along a--children with 
different--disabilities allows many of those children one, to 
stay out of special education, to go into the mainstream 
classrooms, whether they are sight-impaired or have other 
difficulties. Is that fair to say?
    Ms. Brown. Yes.
    Mr. Miller. So there would be a reason why you would 
connect that expenditure of early learning to children with 
special needs and IDEA?
    Ms. Brown. Yes. I think the question there is how many 
programs do we need to do that, but fair point.
    Mr. Miller. No, I understand that, but you are also, I 
think, in those programs--at least I see it in my area, the San 
Francisco Bay area--a lot of that is very specialized work and 
training with those children because of their disability to try 
to keep them out of, you know, the next 12 years of special 
education. So just to say, ``Well, you could just do that in 
Head Start or you could just do that across the street,'' not 
necessarily so.
    Ms. Brown. I can buy that, yes.
    Mr. Miller. Thank you. I have got something else to sell 
you.
    [Laughter.]
    I think it is important that we pull this apart. I mean, 
the Republican ESEA bill, I think, mentions early childhood 
learning 12 times but doesn't carry any money, no expenditures 
for it. I don't know what category that fits in or doesn't fit 
in, but the idea that there is this massive duplication and 
nothing--and it is not working I think is a little bit 
misleading.
    That may not be your characterization; that may be the 
political spin that is being put on your report. But it is very 
clear.
    You know, there was a huge argument when TANF was created 
about that this is about getting people to work. And one of the 
things you have to do to get people to work is to make sure 
that their children have a safe setting, and hopefully a 
setting where they are learning, while the parent is engaging 
in seeking employment.
    And so I think that when we talk about the duplication, yes 
or no, we don't--you don't tell us in the report whether, in 
fact, any of that money is being spent or not being spent, 
correct?
    Ms. Brown. What we say about duplication is it is very, 
very hard to say because we don't have the data, and some of 
the actual programs that are funding these don't have the data 
at the federal level, as well.
    Mr. Miller. You don't know or they are not providing the 
data yet. Because it would be important for us to know if, in 
fact, they are actually spending part of that appropriations on 
the provision of child care early learning services--and 
sometimes child care and early learning, tragically, are still 
separated today.
    You do not list any of the military programs.
    Ms. Brown. No, we don't.
    Mr. Miller. And again, I would assume that the military 
might believe, certainly in bases where repeated deployments 
and extended deployments and all that take place, they might 
want to know very well the credentials of those child care 
providers, those early learning providers dealing with that 
population of families that live under a lot of stress. You may 
not just want those kids to throw them anywhere off base 
because there is a slot available, so there would be the 
rationale for some segmentation for that population.
    Ms. Brown. I think there are many rationales along that 
very line. You know, the question is, that is why we made that 
recommendation to the interdepartmental work group to look at 
these programs together--
    Mr. Miller. I agree with that.
    Ms. Brown.--as a whole. Maybe we should have included DOD 
in that list.
    Mr. Miller. Well, that would be important for us to know, 
because I don't think you can just say, ``Well, you know, all 
this separate segmentation is bad,'' but when you look at DOD, 
doing a lot of work with military families that I have over the 
year on the questions of early learning, they think they have a 
model that works. They think they have a K-12 model that works. 
They are very proud of that.
    We would love to have them included in this full debate. 
And obviously many military leaders are included in this 
question of the early learning debate.
    Finally, just quickly, I would just ask your issue--your 
remarks on the question of whether or not the re-competing of 
Head Start, whether it is working as it--I would like to talk 
to you about that. I was the author of that amendment to force 
Head Start to re-compete. I got all the arrows in my back to 
prove it, but I think it is very important.
    And one of the considerations, obviously, is the quality of 
that program and whether or not the mission of that program is 
being delivered or not. And that has got to be a basis for that 
re-competition.
    Thank you.
    Chairman Kline. I thank the gentleman.
    Ms. Dichter, welcome.
    Mr. Miller. We have been waiting and waiting.
    Chairman Kline. So you have really earned your spurs or 
something here. You have got rain and trains and cabs and all 
those things. We are very happy that you are here. Let me 
introduce you to the committee.
    Ms. Harriet Dichter is the Executive Director of the 
Delaware Office of Early Learning. She led the national policy 
team for the Ounce of Prevention Fund and established the 
Washington, D.C. office for the Ounce's federal policy and 
advocacy affiliate, the First Five Years Fund. I think I got 
that all together here.
    So we are going to pause in our questioning and I would 
like to yield the floor to you, Ms. Dichter, for your 5 
minutes. I would just ask that--the little lights that are in 
front of you, it is going to start green and it will work its 
way through to red in a sequence which you will easily be able 
to figure out. If it turns red, please try to wrap up your 
remarks.
    You are recognized.

STATEMENT OF MS. HARRIET DICHTER, EXECUTIVE DIRECTOR, DELAWARE 
            OFFICE OF EARLY LEARNING, WILMINGTON, DE

    Ms. Dichter. Thank you so much. I appreciate everyone's 
forbearance. It did take me quite a long time to get here this 
morning.
    Good morning, everyone. I am Harriet Dichter, Executive 
Director of the Delaware Office of Early Learning.
    Chairman Kline, Ranking Member Miller, I would like to 
begin by saying thank you. Congress recognized the economic and 
educational payoff of early education and care in the omnibus 
appropriations bill for 2014.
    You restored sequester cuts to Head Start and to child care 
and added more than 900 million to serve additional children 
and establish another opportunity for states to expand 
preschool. I thank you for these advances as well as for 
dedicating a hearing today to early childhood development as 
you plan for the next phase of federal leadership and 
investment.
    Research and science confirms what parents, grandparents 
have always known instinctively: The first years of life set 
the stage for all aspects of development and learning. This 
makes the quality of our early childhood programs essential to 
good lifelong outcomes.
    Now, in Delaware our young children and their families are 
fortunate to be supported by the commitment of our Governor 
Markell and our state legislators. Governor Markell created the 
Office of Early Learning to assure a strong, integrated 
federal-state-community effort for young children and their 
families.
    To support this work, we have over 100 types of partners in 
the state. This includes our school superintendents, our 
principals, and our teachers, our child care and our Head Start 
programs, foundations, universities, business leaders, health 
and behavioral health providers, museums and libraries, and of 
course, our families. That is a lot of partnership in such a 
small state.
    Delaware's state investment in early learning increased by 
one-third of state general funds in the 2011 legislative 
session and it has been further improved through our 
participation in the federal Early Learning Challenge. We 
improved payment rates for our child care providers and we 
funded a statewide framework for early learning, known as 
Delaware Stars, that allows us to work with all of our early 
learning programs--child care, Head Start, schools, early 
intervention--to focus on quality improvement.
    Now across the country both Republican and Democratic 
governors recognize the value of early education. In 2013, of 
the 40 states that provide state resources for preschool, 30 
increased their budgets by a total of nearly $370 million.
    States are committed to this work but I have to stress, we 
cannot do it alone. Partnership with the federal government is 
essential to help us improve outcomes for young children. So I 
would like to use my remaining time to make two main points.
    First, there is no one silver bullet, no one-size-fits-all 
answer. What does matter for outcomes for every child and every 
family is quality.
    In other words, states want the flexibility to structure 
programs to best meet our needs, but establishing and growing a 
high-quality foundation is critical to success. To meet the 
needs of children and families we must provide a range of 
options: full-time care, part-time care, night and weekend 
hours, speech and language development, special needs care. We 
can and should expect to make investments in programs such as 
child care, pre-kindergarten, and Head Start, and we should be 
expecting to invest in infants, toddlers, and preschoolers.
    But what do I mean when I emphasize quality early learning? 
A quality program works in partnership with our families to 
develop our children's skills and abilities not just in key 
areas of language, literacy, and general cognition, but also 
social and emotional skills. This is the fuel for our 
children's lifelong success--initiative, grit, persistence, 
resilience--that, together with traditional academic areas, 
help pay the way to productive adulthood.
    Quality early learning is part of our equation for our 
children's school and life success. That is why we have so many 
partners and stakeholders in our efforts in Delaware.
    Now, despite scattered criticism of individual program 
evaluations and programs, we know quality early learning 
programs work. We have decades of scientific studies conducted 
by well-respected institutions and researchers. They show that 
our children and our communities benefit in many ways--better 
education, higher earnings, lower crime--resulting in greater 
public savings in the short and long term.
    The question is not whether we know enough to proceed, but 
instead, how to expand upon the proven successes of high-
quality programs and, of course, very importantly, we must 
continue to look for ways to improve our work and outcomes.
    Second--and this will be my closing--the federal government 
has not been sufficiently proactive in this area, leaving much 
too much for the states to do, notably on funding and 
financing. As I mentioned earlier, Delaware and other states 
across the country have been making new investments in early 
learning, but the gap between unmet need and available 
resources remains vast.
    We can't do it by ourselves. Our two major funding 
streams--the Child Care and Development Block Grant and Head 
Start--are not sufficient.
    Head Start serves 40 percent of eligible 4-year-olds and 
only 3 percent of eligible infants and toddlers. Only one in 
six children eligible for child care assistance can get it 
because of scarce resources.
    We have children at risk in every county, city, and state 
in the United States. We need new funding to help close the gap 
between those children without access to quality and those who 
do have it. We need a sustained public funding base for 
education to improve access and to improve quality in our 
settings.
    The bipartisan Strong Start for America's Children Act 
would commit new federal resources, along with an umbrella of 
quality standards, to ensure federal money is accountable and 
targeted to proven programs and outcomes. This will help those 
of us in the states to fill gaps, strengthen our efforts 
towards building a high-quality early childhood system with a 
strong framework and new resources.
    I thank you for providing me with the time today. I am 
honored and humbled when I go to work every day to play a role 
in trying to make our office's tagline, which is ``great 
tomorrows begin today,'' a reality for Delaware's children, 
families, and communities.
    Thank you.
    [The statement of Ms. Dichter follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Kline. Thank you, Ms. Dichter.
    Mr. Walberg, you are recognized for 5 minutes as we resume 
questioning.
    Mr. Walberg. Thank you, Mr. Chairman.
    And thank you to the panel for being here today talking 
about this important subject and trying to come to grips with 
how we best can use resources, programs, and encourage this 
education to take place with a good foundation for early 
childhood students to grow upon.
    Dr. Yalow, I am impressed that you have 30 schools in my 
state of Michigan, and it sounds as though you are doing great 
things in working in this important field. Can you talk about 
some of the examples of states or cities where you have 
partnered in this educational opportunity where you have seen 
positive impacts on our youngest students?
    Ms. Yalow. Thank you, and we are proud to be in Michigan as 
well as 38 other states and serve children there.
    Our interest in partnering with states actually began a 
couple of years ago and certainly aligned with the focus that 
states had on having systems that allowed us to track how 
children perform once they entered school. We have reached out 
to about 10 other states in order to do such a partnership 
where we simply provide them information about how our 
children--about who our children are and they link it to the 
state data systems.
    Unfortunately, we have not been able to partner with many 
other states either because they don't have the state data 
systems in place or they have not made the information 
available to us. Currently we are working with Pennsylvania, 
with Georgia, with Florida, with Ohio, and hope to be able to 
have the data that will allow us to better evaluate the impact 
of our programs.
    We are also conducting our own internal research, where we 
are testing our pre-K children using a normative assessment to 
see how our children are performing on a pre-post assessment 
and that we can understand better how our programs improve our 
children's lives.
    Mr. Walberg. Where you have that data, what are the key 
impact points that cause the success with the children you 
serve?
    Ms. Yalow. The focus of all of our programs is that we are 
aligned with learning objectives, the standards across all 
domains of learning important for young children, so we believe 
that because we have a comprehensive curriculum the focuses not 
just on traditional school readiness but also, as was cited 
earlier, social, emotional development, physical development, 
executive function, some of the key skills that children will 
need in the long run in order to be successful in school and 
later life.
    Mr. Walberg. Dr. Whitehurst, so appreciated your story of 
the young mother who was willing to walk miles both ways, 
probably through snow if necessary, because she wanted the best 
for her babies. You know, I choose to believe, and from 
experience as well, that the overwhelming majority of parents 
want the best for their babies and will do what it takes, if 
the opportunity and incentive is there and they are aware of 
that fact.
    Some just simply have more opportunity; some have more 
resources; and certainly, some have more life examples for them 
to pattern themselves after, which makes the difference.
    How do we best support a state's ability to increase that 
role of parental involvement in early childhood education? And 
let me also add to that question, how do we preserve the role 
of parent as the ultimate decision-maker in the child's life, 
especially in the area of early childhood education?
    Mr. Whitehurst. Those are very, I think, critical issues 
and--issues and challenges. I think it is extremely important 
that we not slip into a mode of zip code-based, one-size-fits-
all education for 3-year-olds, where you live determines which 
pre-K you are going to be assigned to by the state, which 
determines what curriculum you are going to get.
    So I think certainly for young children, parents need to be 
in the driver's seat. They need to retain the fundamental 
ability to decide who is going to provide out-of-care service 
and under what conditions.
    I think states have a critical role in helping parents 
shop, because it is a complicated decision. It is not like 
buying a cell phone plan, which is itself complicated, because 
you often don't know what is going on in the center or what the 
outcomes are or how--what the staff turnover is or how 
satisfied other parents have been.
    So I think states could play a critical role in collecting 
that type of information and making it publicly available so--
    Mr. Walberg. If they make that publicly available well, how 
do we get the parents, then, to be able to have what you say, a 
non-zip code opportunity? How do they take control of that?
    Mr. Whitehurst. Well, if you give them the resources I 
think they will shop and they will get good care for their 
child when it is available. I mean, states need to have--to 
create a portfolio so that there are choices available, so that 
there are areas that are well served. But I think if you 
provide the information and provide the resources--
    Mr. Walberg. Are you talking vouchers or something like 
that?
    Chairman Kline. The gentleman's time has expired.
    Mr. Whitehurst. Yes.
    Chairman Kline. Mr. Tierney, you are recognized.
    Mr. Tierney. Thank you, Mr. Chairman.
    Thank all of our witnesses for their testimony today.
    Sir, I just want to follow up on--I want to avoid all the 
battles about methodology on specific programs and get--you 
appreciate, from--I gather from your written testimony, the 
federal support for child care for poor families, if designed 
and implemented properly, and say that it enables parents to 
work, live productive lives, and raise their children 
adequately. Is that correct?
    Mr. Whitehurst. Yes, that is correct.
    Mr. Tierney. And you say they can't--we can't reasonably 
require parents to work if they do not have the resources to 
purchase quality child care.
    Mr. Whitehurst. Correct.
    Mr. Tierney. So you also say the most vulnerable children 
raised in the most pathogenic family circumstances should have 
access to programs that help their parents and improve their 
circumstances beginning prior to their birth.
    Mr. Whitehurst. I agree. Yes, I said that. I--
    Mr. Tierney. Will you define ``pathogenic'' for us?
    Mr. Whitehurst. Well, it is a term taken from medicine. It 
is a situation that creates illness. And so there are some 
situations that are so bad, either in the family or 
occasionally in the child care settings or the child care to 
which kids are sent, that they create lifelong problems, and we 
need to help kids not be in those situations and we need to 
help parents so they are not creating those situations.
    Mr. Tierney. And apparently you think that some of the 
existing child care facilities themselves are pathogenic.
    Mr. Whitehurst. I do.
    Mr. Tierney. Okay. So in your testimony you state that the 
states have a role to play, and one of those roles is 
establishing licensing and oversight processes. If there are 
already pathogenic facilities out there that states are 
supposed to be licensing and regulating, that aren't working so 
well, so we have a problem there apparently.
    So who would set the standards? If we were to have a 
program where federal government put money in and people could 
then use that to go to a facility that was overseeing just 
state-to-state, presumably a different standard in every state 
or something like that, who is going to establish the standards 
and the quality?
    Mr. Whitehurst. Well, I do think it has to be a state 
responsibility. I can't see how this can be done from 
Washington. I think Washington can certainly incentivize states 
to do a better job of it, and if they are accepting the federal 
money to report back on how well they are doing it, I think GAO 
and other organizations could evaluate the degree to which 
individual states are well carrying out that--
    Mr. Tierney. The fact is do we really think that this 
Congress, as currently constructed anyway, is going to allow 
the federal government to go in and tell states whether or not 
they are doing a good job in licensing and setting standards on 
this particular item of anything.
    Mr. Whitehurst. Well, I think this Congress is interested 
in accountability, and--
    Mr. Tierney. Right. But if they are interested in 
accountability that means that we have to take charge of the 
federal dollars. We don't want to go into pathogenic facilities 
in states, and some states may set a level that we think is 
pathogenic, but are--we really think in this Congress we are 
going to allow the federal government to go in then and say to 
a state, ``We are closing those down.''
    Mr. Whitehurst. Well, I--it is not my job to speculate, I 
guess, on what this Congress will do. I think it is--
    Mr. Tierney. And I am really just going with your proposal 
and trying--
    Mr. Whitehurst. No, I think the best Congress can do is set 
up incentives and accountability provisions so that when states 
get money and they are supposed to license daycare centers and 
make sure that they are not pathogenic, that they are well 
doing so.
    Mr. Tierney. Okay. So if we were going to give vouchers to 
people to go and choose in a state which are not pathogenic, 
which are good and which are bad, and we have pathogenic 
parents and families, are they equipped to make that decision?
    Mr. Whitehurst. Well look, there are going to be bad 
choices. There are bad choices in middle-class families; there 
are going to be bad choices in low-income families.
    I think first, the state's responsibility, incentivized by 
the federal government, is to carry out its licensing and 
oversight responsibilities seriously so that the worst 
performers--
    Mr. Tierney. That is a mixed bag already, because those 
responsibilities already exist, and yet you and I agree there 
are some pathogenic facilities out there, so some states aren't 
doing as well as they ought, or maybe some--all states are 
failing on some of those. So if a parent under your theory is, 
``Hey, if you are a pathogenic family and you get the voucher, 
you know, good luck; there are going to be some failures out 
there''?
    Mr. Whitehurst. Well, I am interested in the counterfactual 
or, you know, what are the choices that are better than beefing 
up licensing and oversight and letting parents choose. I am not 
suggesting this is a perfect solution; I am suggesting that it 
is the best available solution, in my view, to a serious issue.
    Mr. Tierney. Would you define for me ``middle class,'' as 
you were saying that the middle-class people are getting 
disproportionately benefited from this because they are 
substituting money from the federal government for cash they 
would pay anyway? What is your middle class definition?
    Mr. Whitehurst. Well, it varies. It is certainly, you know, 
above 200 percent above the poverty line. And so it is any 
parent who was previously able to--managed to purchase pre-K 
who, under a free system, no longer has to do that, immediately 
has in their pocket whatever they would otherwise have paid, 
which is typically $5,000 to $6,000.
    Mr. Tierney. Only because most people I know that classify 
themselves as middle class, even if they are two parents 
earning, will tell me they can't afford child care--quality 
child care. And that means either one of them has to leave the 
workplace and just goes back and forth, so they are not being 
able to work on that basis, so I don't know.
    My last question for you is you broke down the numbers on 
this and determined that it is somewhere between $5,000 to 
10,000 per early childhood person in federal dollars being 
spent every day. Are you advocating that would be the amount of 
the federal voucher per child?
    Chairman Kline. This has got to be a really short answer.
    Mr. Tierney. Well, a yes or no will do.
    Mr. Whitehurst. I think depending on the age of the child 
and the region, a voucher on the order of $7,000 to $8,000 a 
year would allow families to purchase good care in their 
locale.
    Chairman Kline. Gentleman's time has expired.
    Dr. Heck?
    Mr. Heck. Thank you, Mr. Chairman.
    Thank you all for being here.
    Thank you, Ms. Dichter, for braving the elements to make it 
down here.
    Certainly K-12 education in and of itself is very--there is 
passionate supporters, and when you get into the early 
childhood education I think they become even more passionate on 
the discussion. I am a pretty empirical data-driven guy. In the 
ranking member's opening statement he listed a long list of 
presumed benefits associated with early childhood education, 
and everybody always tends to cite the Perry Preschool and the 
Abecedarian Project as the gold standard in empirical data in 
support of early childhood education.
    But I would ask, are there any more recent randomized and 
replicated studies that control for outside variables across 
the lifespan of the child that demonstrate the purported long-
term benefits of early childhood education for either the 
general population or targeted populations when we look at 
where we are going to best apply limited resources? And I will 
open that up to anybody who wants to take a stab at it.
    Mr. Whitehurst. I will take a stab at it.
    The best study we have is the Head Start Impact Study, 
which follows kids through grade three. The other studies are 
interesting. I think we have to look at them, but they have 
serious challenges in terms of interpretation.
    So for example, we have studies that compare siblings. 
Parents decide to send one of their kids to Head Start and 
another child not.
    Researchers have examined the outcomes of those kids into 
adulthood. It looks like the kids who went to Head Start are 
doing better. But you know, if you have two kids, they are 
different. And so why the parent decided to send one child to 
Head Start and not the other is the crux of the issue of 
whether these two kids or two types of kids were the same to 
begin with.
    So actually, I think there is not a lot of evidence, 
despite claims to the contrary, that we have these lifelong 
benefits, except from the two early studies that you mention, 
that involved all together less than 100 kids and that were 
very different from the programs we are talking about today.
    That is why I think they perhaps set an upper bound on what 
we can expect. We need, I think, to be realistic and cautious 
in interpreting that rather than swallowing the notion that we 
are getting the same impact today that these programs for black 
families in Chapel Hill or Ypsilanti, Michigan were able to 
achieve with multiyear, $90,000-a-child investments 50 years 
ago.
    Ms. Dichter. So I did bring with me a recent summary of all 
the studies that was produced by the Society for Research in 
Child Development and the Foundation for Child Development of 
October 2013, and it is a rather extensive review of about 40 
years of literature, including the contemporary studies, and 
discusses in depth, actually, the findings that give people 
like me a good feeling as I go to work every day about the 
opportunities to make a difference and to really get good 
outcomes with a reasonable approach, so I am happy to share 
that with you.
    But this is a really excellent summary by a number of 
leading researchers affiliated with really high-quality 
institutions who have taken the time to look at really the 
decades of research, and again, both studies at scale--the 
bigger programs as well as these smaller programs that were 
just referenced--to help us to understand the positive benefits 
of these programs in the short term for our children and their 
ongoing contributions.
    Mr. Heck. Yes. If you could please make that available, 
that would be great.
    Ms. Dichter. Yes.
    Mr. Heck. I am just curious, is that a meta-analysis of all 
the previous studies or is there actual--
    Ms. Dichter. Yes.
    Mr. Heck. Okay.
    Ms. Dichter. It is not a new study. It is a document that 
was put together to be able to help people who are not 
researchers have a good understanding of what the scientific 
community has to say to us about our work.
    Mr. Heck. That would be great. Thanks.
    And, Dr. Whitehurst, you mentioned, I think, with the 
Tennessee Voluntary Pre-K Program, which showed there were--
basically had no better outcomes than the controls, but I would 
have to ask, would that be a valid analysis? I mean, was it 
prospective versus retrospective? I mean, if it is voluntary 
those kids that are enrolled are self-selected, so in your 
opinion, was that study a valid study to say that there was no 
benefit for--
    Mr. Whitehurst. Yes, sir. It was a very strong study. It 
involved centers that were oversubscribed. A lottery was used 
to select those who got in and those who didn't. All of those 
children were followed to the end of first grade. So it is a 
gold standard randomized trial, which is the best evidence we 
have for drawing these types of conclusions.
    Mr. Heck. Great.
    Again, thank you all very much for taking the time to be 
here and making your presentations.
    Thank you, Mr. Chair. I yield back.
    Mr. Miller. Mr. Chairman, given the conversation Mr. Heck 
had, I would like to ask unanimous consent to submit some 
documents for the record of this hearing, which include the 
study--I mean the summaries that Ms. Dichter, along with other 
research?
    [The information follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    Chairman Kline. Without objection.
    Mr. Miller. Thank you.
    Chairman Kline. Hearing none, so ordered. Okay.
    Mrs. Davis?
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you to all of you for being here.
    Regarding the summaries that you just mentioned, Ms. 
Dichter, is there anything in there that would suggest that 
actually we are throwing too much money at this subject?
    Ms. Dichter. No. And actually, in my own experience working 
in the field, there is a lot at my end to suggest that we 
actually aren't yet investing the level of resources. I 
mentioned this in my opening remarks, that if we look around 
the country we see many gaps of children who aren't able to get 
services, and we have a great deal of need, still, to continue 
to invest to help people improve quality.
    People who do the work on the ground with our children--the 
teachers--are very serious about wanting to have great impacts 
for the children that we are serving, and our ability to 
support them in developing the skills that they need to work 
effectively with the kids and with their families requires 
greater investment, not lesser investment in the infrastructure 
and in the service programs.
    Mrs. Davis. In looking at those gaps, then--and I know 
there are different opinions of whether or not dollars should 
be focused and resources should be focused more on children who 
ordinarily would not get that help versus--depending anywhere 
where we define ``middle-class families,'' and we might 
disagree about that, as well--in the summary, to your 
knowledge, is there anything that really looks at having 
populations of students more diverse, in terms of economic 
levels, than less so? Because I think and there are programs 
where we tend to divide children in that way, and we know that 
parents will do just about anything to get them into the 
preschool that they perceive to be at the highest level when 
they can.
    And I am just wondering, within those summaries do you see 
anything that really jumps out in terms of the programs that 
would speak to the need to really have I guess more stimulation 
and more diversity among those young children that are there 
playing together, that are learning together?
    Ms. Dichter. Sure. So I think that we know that we have a 
great benefit to our at-risk, low-income children from being 
able to participate in early childhood programs, and we 
certainly know from our dialogue and discussion with their 
families how much they want for their children's future to have 
the benefit of a good, quality program.
    We also know that our middle-class children also derive a 
benefit from these programs, and if we look more broadly, I 
think, in society, we see that families of means basically tend 
to enroll their children in early childhood programs. They 
understand what the benefits are for the kids not only, again, 
on language and literacy and cognitive development, the things 
Dr. Yalow was talking about, but also in terms of social skills 
and preparation, basically, for school.
    So I think that we know that there are benefits across the 
board, and that there are also benefits for the children to be 
able to be in classrooms together. If we want to have a diverse 
and productive society with that focus on our own economic 
competitiveness, some of that is starting in our early 
childhood programs, and being able to meet the needs of these 
many diverse families that we have, and to assure good quality 
and good access for them is critical.
    Mrs. Davis. Thank you. I appreciate that.
    I mean, part of it, I think, is this return on investment 
that I suspect you can find studies, and I think our witnesses 
have certainly spoken to that, where you don't--where they 
don't see the gains that perhaps they would like to see, but 
trying to make an argument that therefore we shouldn't provide 
these programs as a result of that seems--and, Dr. Whitehurst, 
I don't think you were making the case, necessarily, that we 
shouldn't have any programs whatsoever. I didn't hear that. But 
I think that sometimes we really do need to focus on that 
return on investment, and you seem to suggest that you don't 
think that in many cases it is there.
    Mr. Whitehurst. No. I am certainly not arguing for less 
investment. I am just arguing that we should target that 
investment to families that need it and we should do it in a 
way that has a system that evolves rather than as a top-down 
decision about what is best for all parents on Tuesday in 
November--
    Mrs. Davis. Yes. Right.
    Among OECD countries--and many of them, of course, have 
strong programs--in the summaries, Ms. Dichter, is there 
anything that, again, jumps out in terms of how other countries 
are structuring their pre-K programs versus our programs, and--
where you get that kind of high quality, where you are paying 
teachers more, where you are valuing the fact that the teachers 
are really recognized for their talent in being able to teach 
young children and not necessarily sort at the low end of the 
spectrum in terms of teaching?
    Dr. Yalow, do you want to speak to that?
    Ms. Yalow. I would be happy to just address that briefly, 
because I have worked fairly extensively in Singapore and the 
United Kingdom as well as some other countries in Southeast 
Asia, and I have had the opportunity to observe some 
outstanding early childhood education programs. What we tend to 
see there is a stronger commitment, both on the policy side as 
well as a stronger realization on families of the importance of 
early childhood education.
    So, for example, in programs in Singapore, when they went 
through not as dramatic an economic turndown as we did, but we 
saw our enrollments being very stable because parents 
appreciated that the difference they could make in their 
children's lives in the youngest years was going to have long-
term beneficial impacts. They would make many other sacrifices 
before they would sacrifice high-quality early learning 
programs.
    Chairman Kline. The gentlelady's time has expired.
    Mr. Rokita?
    Mr. Rokita. I thank the chairman.
    And good morning to the witnesses. I thank you each for 
your testimony.
    Let me start my time by acknowledging the ESEA 
reauthorization bill that not only passed out of this committee 
but is waiting over at the Senate for a hearing. As the 
subcommittee chairman for early childhood, elementary, and 
secondary education, we put a lot of time and effort into that 
bill, and a lot of that time and effort was spent with some of 
our colleagues on the Republican side of the aisle.
    See, we are 10 years into what we have termed No Child Left 
Behind, and in that decade of experience we realized what 
worked with No Child Left Behind, what is working, and more 
importantly, what is not working. We realize that 
accountability is a good thing, and that has been discussed 
here.
    But we also realize that the best people to determine what 
success is lies with our parents, our teachers, taxpayers at 
the local level. The reauthorization that I am talking about 
trusts those people more than bureaucrats in Washington. No 
offense. Present company excepted, and we will get to you in a 
minute.
    And that is the key difference here. And the architect of 
No Child Left Behind, the speaker of this House, even voted for 
our reauthorization, coming to the same conclusion.
    What we really need in this town, and it should be no 
surprise to any of the witnesses, is leadership. Let the bill 
be heard in the Senate. What could it hurt? What is the 
problem?
    In the research that I did in preparing that language, I 
went to a place called EduCare that was built in the--right on 
what would have been the shadows of the Robert Taylor Homes in 
Chicago, and what I saw there was no less than amazing. And I 
will just bring up for the record a couple of those 
observations.
    First of all, they were trying, in an early childhood 
education environment, to teach kids whose parents were never 
parented. So now we are in second and third generations here, 
and so part of their contractual relationship that they have is 
that the parents come in to learn how to be parents. And I 
found that amazing.
    The second thing I found was that they were mature enough--
the leaders of this institution or organization were mature 
enough and responsible enough that when they started the first 
time they found some things that weren't working. They actually 
suspended the program. They stopped taking people's money and 
worked out what was going wrong and then started again.
    And you can correct me or tell me if that happens 
throughout these programs and throughout these different 
schools. I am happy to be educated further. But I found that 
really amazing and appreciate it.
    There has been some comment made that the ESEA doesn't 
authorize or spend any money in this area, and that is wrong. 
For the record I want to say that in Title I for fiscal year 
2014 we are allocating $14.385 billion. Two percent of $14.385 
billion is about $288 million, and that is the amount that the 
CRS, the Congressional Research Service, says that is used to 
support preschool services.
    So I understand the point that might have been made, that 
dedicated funds may not be siloed, but again, when you look at 
the approach of ESEA reauthorization you see that we want that 
flexibility in there because why? We trust parents, teachers, 
local taxpayers more than any other bureaucrat--than a 
bureaucrat in Washington. We believe they know what is best for 
our kids than anyone in this town.
    Ms. Brown, I am running out of time. How long have you 
studied the federal government?
    Ms. Brown. How long have--
    Mr. Rokita. Yes.
    Ms. Brown. More than 25 years.
    Mr. Rokita. Yes. Do you know of any bureaucrat that you 
have ever met that knows the children of Indiana better than 
Indiana's parents, teachers, and taxpayers?
    Ms. Brown. I can say no to that.
    Mr. Rokita. Thank you.
    What is your definition of ``duplication,'' a duplicative 
program? Do you have an official definition at your agency?
    Ms. Brown. Yes. The official definition for ``duplication'' 
is programs that serve the same children at the--with the same 
purpose and serve the same children.
    Mr. Rokita. Right. Have you ever met a--have you ever seen 
a duplicative program under that definition?
    Ms. Brown. In the food assistance area, we have done some 
work in that and have seen a number of cases where there might 
be programs that could or do serve the same population. 
Sometimes that is okay because there might be a need for 
different entry points for families, and sometimes that can be 
a problem.
    Mr. Rokita. I am yielding back the microphone. I would say 
that maybe we should consider in that definition overlap and 
fragmentation as better ways to determine what duplication 
really is.
    Thank you.
    Chairman Kline. The gentleman's time has expired.
    Mr. Scott?
    Mr. Scott. Thank you. I am sorry.
    Ms. Dichter. I just wanted to say how delighted I was to 
hear that you had been to visit an EduCare program. And that 
is, of course, such a powerful example of the kinds of things 
we are talking about--coordinating the different funding 
streams we have to try to, in an intensive, very reflective 
way, establish high standards, lots of assessment of the 
children--I think Dr. Yalow talked about that to inform 
practice--good partnerships to the families.
    These are the kinds of things that we work on at the state 
level with local partners in this coordinated way, but they are 
also exactly the kinds of things--because it is hard. It is 
very hard work. You saw that. To be able to do that, why these 
issues around needing more resources, basically, and being able 
to deliver more support to the states to be able to help pull 
this together, really set a strong foundation, are important.
    Mr. Rokita. I appreciate that.
    Will the gentleman yield for 30 seconds?
    Mr. Scott. I actually wanted to follow through on the 
question you had asked. Go ahead.
    Mr. Rokita. Thank you.
    I would just say, I appreciate that, and I just don't 
understand when we can't determine, based on--for a lack of 
data, where the duplication is, where the overlap is, where the 
waste, fraud, and abuse is, how we can then conclude that 
automatically we need to spend more money. I believe in 
targeting the money, but just to say we need to throw more 
money at something when we can't even show that the money 
currently being used is being used efficiently is the wrong 
approach.
    I yield back.
    Mr. Scott. Thank you.
    And I wanted to follow up on the difference between overlap 
and duplication. You are not suggesting that the same child is 
in actually two different programs, are you?
    Ms. Brown. Okay, there are two answers to that. One is that 
it is possible that the same child could be in two different 
programs, and it might be something like Head Start in the 
morning and daycare in the afternoon.
    Mr. Scott. But basically by duplication you mean the child 
had two programs serving the same area, but not that the same 
child is in two programs.
    Ms. Brown. Right. The only--
    Mr. Scott. And so there is a difference between overlapping 
services and duplicated services.
    Ms. Brown. We tried to think about instances in these types 
of programs where there would be true duplication, and most of 
the examples we came up with were cases where there might be 
inappropriate or improper use of funds, like, you know, someone 
was, you know, had--claimed that they had a child enrolled in a 
program or something like that. And unfortunately, when you 
have this many programs that are operating similar services 
that kind of opens the door for--
    Mr. Scott. Well, sometimes the overlap is helpful because, 
as we have heard, some programs are more appropriate for some 
students than others, and if you have overlapping programs they 
would be able to choose, but the same child isn't going to be 
in kindergarten and Head Start at the same time.
    Ms. Brown. Right. I mean, it is very possible that a child 
might be in a family daycare home and be receiving Child and 
Adult Care Food Program, and that may be appropriate.
    Mr. Scott. That is not the normal case of duplication.
    Let me just move on to another question. There have been a 
lot of studies that have been referenced, and I think the 
consensus is that the early childhood education is extremely 
valuable.
    Ms. Brown, can you say how valuable it is in reducing the 
achievement gap?
    Ms. Brown. That is not my area of expertise.
    Mr. Scott. Ms. Dichter?
    Ms. Dichter. Yes. I am happy to talk to that.
    So, from where I sit, we have lots of evidence of the 
important role that early childhood education does play in 
reducing the achievement gap. I think you are probably aware 
just of recent studies revalidating work from a couple of 
decades ago around vocabulary gaps for children basically with 
less economic resources, and those vocabulary gaps start pretty 
early and they have a big influence in terms of something I 
think we all know is very important.
    We want our kids to be good readers, right? We want the 
great command of language and vocabulary for them, you know, 
particularly by the time they are in third grade. And I think 
that we know when we have a high-quality program that is very 
well focused it can do a lot to help us with closing those 
kinds of vocabulary gaps and setting up our children very well 
for their participation in school and to get a really great 
benefit from the school years.
    Mr. Scott. And also, does it have an effect on future 
dropouts?
    Ms. Dichter. And we can see, if we carry this trajectory 
out what we are able to see is that we have better persistence 
for kids who are less advantaged who have been in high-quality 
programs at high school graduation. We see that in terms of 
crime reduction. We see this in terms of earnings and 
productivity--
    Mr. Scott. Teen pregnancy?
    Ms. Dichter.--the ability to participate in college and 
post-secondary education.
    Mr. Scott. And what about teen pregnancy?
    Ms. Dichter. And also teen pregnancy. There are also health 
effects. I think Dr. Heckman, Nobel laureate, who has taken a 
big interest in our area, has been doing some really important 
work in this area to be able to show us the range of effects.
    And I think I mentioned before that we want our children to 
be on a pathway to productive adulthood and to be helping, 
actually, with the maintenance of a competitive economy in this 
country. Early childhood is not the only solution, but it is 
certainly part of the solution that we have in terms of the 
future that we are trying to build for ourselves and our 
children.
    Chairman Kline. The gentleman's time has expired.
    Mr. Thompson?
    Mr. Thompson. Thank you, Chairman.
    And thanks to the panelists, the witnesses for speaking on 
this very important issue when it comes to education.
    You know, all the information that has been presented, it 
seems like there is a lot of variance in terms of the outcomes 
here. And most importantly, it seems they are really 
questionable of the sustainability, which is probably the most 
important thing, that the outcomes that are achieved have--are 
sustainable, as they hit the, you know, the primary school 
years and continue on to secondary.
    And certainly there are many different paths to assuring 
our kids a great start in life, and so, Dr. Whitehurst, just 
real simply, from your perspective, what should we be doing? 
What would work and what would be effective? What would be 
sustainable, that these kids keep those outcomes and they grow 
with as the kids grow?
    Mr. Whitehurst. Well, there are a lot of things that I 
think are important. I think the first thing that may be 
important is to stop thinking about an investment in a 4-year-
old as somehow more important than an investment in a 5-year-
old. Kindergarten is as important as pre-K, and first grade is 
as important as kindergarten.
    So I think one of the things we need to be thinking about 
is the larger impact of these programs on the lives of the 
people involved--their ability to work, their ability to get 
additional education and training.
    Within that, I think we want programs that provide what 
children are not getting at home. So with regard to the 
vocabulary gap, it certainly does exist so we want programs 
that provide rich stimulation that enable children to learn 
words and learn things about the world that they would be 
learning in a middle-class family that might not be learning in 
their family of birth.
    And as we are able to collect information, which is really 
hard to get now, on which programs and which teachers are doing 
that well, I would hope that we would have incentives in place 
that would encourage centers to do better and teachers to do 
better and would enable parents to know what they are getting 
into when they choose to let their child off at the door and 
let that child have 6 or 7 hours a day in the care of other 
people.
    Mr. Thompson. In terms of, you know, as--parents dropping 
those kids off, putting them in the hands of what you hope are 
qualified and obviously caring professionals, which I think 
many are, but does input data like a preschool teacher's 
credentials have--if that has little impact on a child's 
learning, what factors are important to determining the, you 
know, the effectiveness? Because I think when it comes to 
education, you know, the number one factor is obviously the 
teacher. Most important asset that we have, in terms of 
education and learning.
    Mr. Whitehurst. Right. That is, I think, extremely 
important. I think we have learned that lesson in K-12. The 
evidence is there that the most important influence is not the 
school the child attends but the classroom and teacher that the 
child experiences, and we seem to have lost that lesson in pre-
K, where we are focusing mostly on centers and not on 
classrooms.
    Unfortunately, the other lesson we have learned in K-12 is 
it is very hard to tell what makes a good teacher except 
observing teachers and finding out who is good and who is not. 
And I think that is surely the case in pre-K, as well.
    The evidence is pretty strong that credentials are not 
predictive of the quality of adult-child interactions in pre-K, 
and I think we need to focus on professional development that 
will help. Some will, some not. And I think we have--need 
systems in place that carefully evaluate teacher performance in 
the pre-K arena and do what we ought to be doing, and that is 
encouraging the good ones to stay in the profession by paying 
them a living wage and getting the bad ones to do something 
else.
    Ms. Dichter. Yes. I just wanted to mention, in the area of 
supporting our teachers in the early childhood education 
setting, that one of the things early childhood has been doing 
for quite some time is actually creating good instruments to be 
able to go in and conduct classroom observations--observations 
of teachers interacting with children, observations of learning 
environments for the kids.
    And so, certainly in our programs we incorporate these 
kinds of instruments and tools into our overall statewide 
programming that we are doing, and it is part of our 
accountability measurement.
    Mr. Thompson. I think that speaks to an important part of 
education, and that is making sure that the supervisors--
whether they call them head teachers, or principals, or 
whatever the title is--that they are prepared to perform those 
supervisory duties to increase the individual's performance 
whom they are supervising. I think that first and foremost is a 
responsibility.
    Mr. Chairman, in the event of changing colors, I yield 
back.
    Chairman Kline. Perfect timing, Mr. Thompson.
    Mr. Holt, you are recognized.
    Mr. Holt. Thank you, Mr. Chairman.
    I thank the witnesses.
    Ms. Dichter, you present a strong case about the successes 
in your state. I think we could equally well have a witness 
from New Jersey because we have had, through court order, tens 
of thousands of children in many parts of the state now, under 
the Abbott v. Burke order, tens of thousands of students 
receiving high-quality early childhood education.
    It is worth pointing out, and I will summarize quickly, 
before these programs were mandated and put in place, fewer 
than 15 percent of pre-K classrooms were good to excellent; a 
quarter of them were worse than minimal quality. That is all 
turned around. There are essentially none that are in the 
``poor quality'' and very many in the ``good to excellent 
quality'' in classrooms.
    But more important, the estimated effects on the kids--or 
the demonstrated effects on the kids, I should say, are 
substantial and persistent. And they go a long way toward 
closing the achievement gap between low-income children and 
more advanced children.
    The Abbott program in New Jersey has shown positive effects 
on children's cognitive and social development--immediate and 
lasting--on school progress and educational attainment, on 
social behavior. So, you know, it is important to look at that.
    And yet, today's hearing begins--and I would like to 
address this to you, Ms. Dichter--begins with the chairman 
talking about all of these federal programs. Mr. Miller, I 
think, in his colloquy with Ms. Brown, established that there 
really is a need for some of these diverse programs.
    But really what I wanted to ask you, as somebody who is 
running statewide programs, having to coordinate these many 
different programs, as we have had to do in New Jersey, is that 
really the problem? Is the fragmentation of different programs 
the problem here, or the principal problem that we--the 
starting problem for us to look at here today?
    Ms. Dichter. Thank you so much, and I am glad you brought 
up Abbott, of course. It is really a fantastic program and a 
great benefit for the children of New Jersey and their 
families.
    In terms of the principal issues, I don't--I at least spend 
time coordinating our programs. We have good partnerships, 
basically, with the various programs. I don't see the issue as 
being one of duplication or an issue of fragmentation, you 
know, or overlap.
    I actually see that our biggest issues are resources so 
that we can meet needs appropriately, and appropriate 
partnership between the states and the federal government so 
that we can both do the work that is contextual within the 
state about our frameworks for quality, but with good support 
and good linkage with the federal government.
    So from where I sit--and I think I said this in my 
remarks--you know, a big issue is resource development for us, 
and making sure that we are able to be clear about meeting the 
needs of the various targeted populations. We have a lot of 
diverse families, a lot of diverse children whose needs that we 
are trying to meet.
    So for me, yes, we need more resources in our big programs, 
like Head Start and the Child Care and Development Block Grant, 
and we would also have a very good benefit from establishing 
some additional federal funding, you know, as suggested in 
certainly one of the bills here to be able to assist and to 
make sure that we can do a great job. Our families do expect, 
when they are enrolling their children in our programs, that we 
wouldn't allow them to be open unless they were high-quality 
offerings for them.
    And of course, as we have been discussing, there is a lot 
of ongoing need to do quality improvement. So the resources are 
really necessary, from where I sit, to be able to make sure 
that as parents enter the door with their kids they get what 
they are expecting from our programs.
    Mr. Holt. Thank you.
    My time is almost up, so I will ask the witnesses to 
supplement their testimony if they choose to in writing to 
address the fact that economist James Heckman says that the 
highest return on investment is in the first 3 years and the 
highest return in that comes from attention to instruction--the 
instructors, the caregivers, the educators. So if you would 
care to supplement your remarks about 9-month to 24-month 
programs and contributions, I think that would be helpful to 
us. Thank you.
    Chairman Kline. Gentleman's time is expired.
    Ms. Bonamici?
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    I am from the great state of Oregon, and last week our 
Oregon Department of Education released the results of its 
statewide kindergarten assessment, and this test asked incoming 
kindergartners to name capital and lowercase letters, and they 
found that the average 5-year-old, when looking at a page 
containing 100 combinations, could name just 18.5 on average. 
When asked to pronounce letter sounds the study found that the 
average student could pronounce only 6.7 on a page of 110.
    So our governor has called these results sobering. He said 
that Oregon has had a scattershot approach to early childhood 
education, and I know that the state is looking at making some 
changes.
    And indeed, too many qualifying Oregon students are left 
out of public preschool programs. Only about 7 percent of all 
3-and 4-year-olds are able to take part.
    So Oregon is taking steps to remedy the problem at a state 
level, creating early learning hubs to focus the efforts and 
strategies of educators and social services, school districts, 
and health care providers.
    So, Ms. Dichter, would you please discuss how effectiveness 
can be increased if there is a coordinated effort across all 
sectors that involve early childhood education? And also, 
please compare the expected results of coordinating these 
programs versus consolidating or eliminating them, as has been 
suggested.
    Ms. Dichter. Sure. I am happy to do that.
    So I think that as we approach this work in Delaware, what 
we do across the programs--I mentioned our Delaware Stars 
effort--is to have an approach that integrates research-based 
standards, improvement supports for our providers, and of 
course, financial incentives for them so that we are able to 
work within our unique context, as you would be doing in 
Oregon, to be able to meet local needs and to take advantage, 
actually, of the network of existing programs, whether they are 
offered by schools, through child care or Head Start, to be 
able to bring things together.
    We also work, then, to take advantage of social media and 
other opportunities to really work with our families so that 
they become aware of our Stars framework and are able to use 
that to guide their own program selection, and we are able to 
be very transparent with people about where the programs are 
and where things are going.
    So it does take a lot of energy. It is dynamic work that we 
are able to do.
    But it is actually work that excites everyone in the 
community. Not only do we hear this from our families who are 
excited about this and how we are working with them, but the 
network of providers actually welcomes this approach because it 
is unifying for them.
    One of the issues--and I think you raised this as you were 
talking about the experience in Oregon--is needing to make sure 
that we have really good connections between our early 
childhood programs and our K-12 system. And you can get some of 
that when districts choose to offer early childhood, but not 
all districts want to, and there are well-established players--
you know, we are sitting with a good example of that here--who 
are in the game and have been offering a lot to our children 
and families.
    And so this kind of approach actually can be very unifying 
because it allows us to do more building of that continuity for 
children and families and, actually, across the teachers, as 
well, as they are moving from the early childhood setting into 
the kindergarten and above setting.
    Ms. Bonamici. Thank you. And I want to follow up with 
another question.
    Thank you for continuing to mention families. Early 
childhood education is a pillar of the Women's Economic Agenda, 
and the premise is when women succeed America succeeds. The 
President mentioned that the other evening in the State of the 
Union.
    One statistic in Oregon's recent study struck me as 
particularly telling but not surprising. The two school 
districts with the highest performance--one happens to be in my 
district and one just outside of it--also had the lowest 
incidence of child poverty in the state. And conversely, the 
two districts with the lowest scores had the highest rates of 
child poverty. And I don't think that is surprising, but it is 
quite troubling.
    Would you please discuss whether these results are 
generally consistent with what we know about the role that 
poverty plays in a child's ability to start kindergarten 
prepared to learn and discuss what we know about the importance 
of continuing to address poverty as a barrier throughout a 
child's educational career? And my time is about to expire, 
so--
    Ms. Dichter. Okay. I will briefly say yes, basically those 
results, I think, are not surprising to us. There is a 
disadvantage, basically, that we need to work to be able to 
provide appropriate support, classroom-based partnerships with 
families.
    They are critical regardless of family income, okay? 
Parents are first and foremost responsible. Early childhood 
working successfully in partnership with families across all 
economic strata, is a critical part of my definition of a good 
program that will yield better results for children.
    Ms. Bonamici. Thank you.
    And my time is expired, but I would appreciate hearing from 
the others in writing after the hearing because I am out of 
time.
    Thank you, and I yield back.
    Chairman Kline. Thank the gentlelady.
    We have reached the end of our questioning period. Before I 
thank the witnesses I would like to yield to Mr. Miller for any 
closing remarks he might have.
    Mr. Miller. Thank you.
    Just, Ms. Yalow, you wanted to quickly respond to something 
Ms. Bonamici asked, if you want to take a minute?
    Ms. Yalow. I just wanted to second Ms. Dichter's comments 
about the importance of--and really emphasize the importance of 
informing families about the choices that are available to 
them. There are multiple options that families have, and we do 
not do as good a job as we can do of letting parents know what 
different options they have so that they can make the choice 
that is best for their child and for their family. Thank you.
    Mr. Miller. Thank you very much.
    And thank you to all the witnesses for this morning.
    Ms. Dichter, thank you for making the extra effort to get 
here. You could have called in and everyone would have said she 
is snowed in or iced in, I guess was the trick.
    But thank you. And I think your testimony was very 
important because what you are doing in your state is exactly 
what we would like to see the states do, is to take the 
responsibility, knit the programs together, have a continuum of 
care and learning for these children, recognizing the 
sociological differences and economic differences. But the goal 
is the same for all of the children in Rhode Island or 
California.
    I happen to have much more confidence in your state, in my 
governor and others, who are trying to knit this together from 
kindergarten to transitional kindergarten to early learning and 
all of those opportunities. And why are we doing it? Because we 
know it makes a difference.
    Every family that takes the time to read to their children, 
to describe colors to their children, that sits--even families 
where they don't know English or they can't read to their 
children, if they show that the action is important the 
children are different, okay? And the largest pay raise that 
most middle-income families will get is the day their child 
leaves child care and goes to the public schools, okay? It is a 
big payday.
    But it is important they make the sacrifice to make it. 
Other families don't have the wherewithal to do that, so we are 
trying to provide that.
    But I almost think like we are--because President Obama has 
suggested this program we are developing a class of sort of 
like, you know, child care deniers, early learning deniers. The 
evidence is compelling. It is validated by families who will do 
anything to get their child into the best early learning 
atmosphere in all of Manhattan. They will cheat, they will lie, 
they will do whatever it takes to get their kids to understand 
the principles of life.
    But yet we are going to have a denial here. I don't know 
quite why we are denying it. When we shut down the federal 
government they immediately ran to the floor and said, ``Open 
up the Head Start centers. We are hearing from Head Start 
parents. It is important that we not miss a lot of days of Head 
Start for these children.''
    Title I--sequestration cut it across the board. They 
immediately restored it now in the first chance they had with 
the appropriation--and they put in the new money for Head Start 
and for the expansion programs.
    They want the states to control it but they don't want the 
states to have the resources to do it. It is a little 
schizophrenic here. They understand--America has come to 
understand, families have come to understand--the importance, 
and the brain science is compelling, whether you want to get 
this.
    We are all aware of the very toxic trauma that children can 
live in, and we know the impact. We also know the impact of the 
opposite of that: an enriched environment, a sustained 
environment.
    Even in low-income families, even in the poorest families, 
even in homeless families, that can be transmitted, and we have 
to meet these children and these families in these various 
settings, whether they are homeless--I remember the struggle we 
went when Ed Meese decided that, you know, they were homeless 
because they wanted to be, and then we had to find out what 
school they could go to, what their address is, and all of 
that.
    Well we try to provide services because we don't want to 
lose those children. We don't want to lose those children.
    And the fact is, we can keep denying, you can say the Perry 
study is 50 years old--it has been updated all of the time, all 
through these generations, and it has been supplemented by 
others, and just the evidence of parents, the evidence of 
school teachers. And the fact is, if you take kids out of a 
really good early learning situation and you dump them, as you 
do in my congressional district, into some of the worst-
performing schools in the state--yes, they are going to start 
losing ground.
    So you have got to build that tradition, and we are in the 
effort of trying to do that with the rewrite of ESEA. And we 
are giving that to the governors with more authority.
    So I think we are on a track here that is supported by both 
parties, but one part just can't quite step up to provide the 
resources to do it. And yet every day the validity of the 
impact and the importance to students is--and here we are 
sitting here with the public and the private effort--many cases 
a public and private partnership in a number of states, as you 
point out, Ms. Yalow--and that is true in my state, California. 
Obviously, you know that very well.
    And so what is that last kernel of evidence that is going 
to make you understand that this is important, that government 
should be doing it? You can keep fooling around with there is 
duplication or what have you.
    Yes, we have programs for homeless kids and programs for 
kids with disabilities and programs with kids with autism and, 
you know, with special populations, and we have to sometimes 
feed kids at the summer playground as opposed to the school, so 
we have a summer recreational feeding program and we have an 
early morning program, we have an afternoon program because 
that attracts mentors to work with the kids after school. Yes, 
these are special settings where people find themselves, their 
children, where they can take advantage of the best of what 
this country has to offer with respect to its educational 
systems and its child development systems.
    But I guess the debate will continue to rage. It is a 
tragedy because every moment we fail to empower you with the 
resources in Rhode Island or California or anywhere else to 
form these partnerships, to develop this data which is so 
critical--so critical in this day and age in terms of real-time 
information about children--we just postpone the future for 
these children day in and day out.
    Thank you.
    Chairman Kline. I thank the gentleman.
    And I thank the witnesses for being here today, for your 
testimony.
    Just a couple of comments. Listening to the word 
``deniers,'' I don't think there is anybody at this table and 
the witnesses' dais that is denying the importance of early 
childhood education.
    Some of us who may be in the denying thing by inference, we 
put together this hearing that calls this ``The Foundation of 
Success,'' so there is not any denial here that I have been 
able to see that early childhood care and education are 
important.
    We sadly do not have unlimited resources. I know some don't 
agree with that, but we don't have unlimited resources so we 
are trying to answer the questions, what is working here, what 
is not?
    One of the questions that came up was: All these programs--
some 45 programs identified by the GAO--are they fragmented? 
Well, seems to be they are. Is there duplication?
    There is no suggestion in your report, Ms. Brown, that 
there is duplication.
    We are not claiming that.
    But there is fragmentation, and is there a better way to 
bring them together? And the GAO report said yes, there ought 
to be an interagency working group here that tries to work 
through this stuff so we get better return on those limited 
resources.
    And Dr. Whitehurst said look, we ought to be focusing our 
efforts here on the children that need this the most--on lower 
income. Because I think that, at least certainly in many cases 
that I know of, there are children who are doing very, very 
well without any formal pre-K education. They typically come 
from family with their own resources--perhaps a stay-at-home 
mom or dad or somebody is there with them who is addressing 
that vocabulary growth, reading with the children. But that is 
not available everywhere, and we all know cases--we have talked 
about the impact of poverty, for example--where there clearly 
you don't have that.
    And so it seems to some of us that we probably ought to be 
looking at where we are going to focus those limited resources 
so that we get the most back.
    States have been claiming how good they are. I am from 
Minnesota. We actually have very excellent pre-K education, so 
I would put that in. I can't let New Jersey and Delaware and so 
forth get by with it.
    We would like to see that this foundation for success is 
developed properly. You have been very, very helpful today as 
witnesses. I thank you for being here.
    And, Ms. Dichter, as Mr. Miller said, you get sort of extra 
double gold stars or something--however how many stars we can 
award--because when you weather the weather and the trains and 
I don't--were there any planes involved? I guess not. Just 
trains and taxis.
    Ms. Dichter. Just trains.
    Chairman Kline. Anyway, thank you all very much for being 
here.
    We are adjourned.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    [Whereupon, at 11:58 a.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
